Appendix

ia
Appendix Table of Contents
Page
Unpublished Opinion of
The United States Court of Appeals
For the Fourth Circuit
Re: Affirming in Part and Dismissing in Part
entered March 10, 2020 ................................. 1a
Judgment of
The United States Court of Appeals
For the Fourth Circuit
Re: Affirming in Part and Dismissing in Part
entered March 10, 2020 ................................. 5a
Opinion and Order of
The United States District Court
For the District of South Carolina
Re: Denying Defendant’s Motion for Summary
Judgment and Granting in Part and Denying in
Part Plaintiff’s Motion for Summary Judgment
entered April 16, 2019 ................................... 6a
Report and Recommendation of
The United States Magistrate Judge
entered November 15, 2018 ......................... 43a
Order of
The United States Court of Appeals
For the Fourth Circuit
Re: Denying Petition for Rehearing
entered April 14, 2020 ............................... 109a

1a
[ENTERED: March 10, 2020]
UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-1457
BEATTIE I. BUTLER,
Plaintiff - Appellee,
v.
D. ASHLEY PENNINGTON, in his individual and
official capacities,
Defendant - Appellant,
and
CHARLESTON COUNTY,
Defendant.
Appeal from the United States District Court for the
District of South Carolina, at Charleston. Bruce H.
Hendricks, District Judge. (2:15-cv-04455-BHH)
Submitted: February 27, 2020
Decided: March 10, 2020
Amended: March 10, 2020

2a
Before KING, THACKER, and HARRIS, Circuit
Judges.
Affirmed in part and dismissed
unpublished per curiam opinion.

in

part

by

Nancy B. Bloodgood, Lucy Clark Sanders,
BLOODGOOD & SANDERS, LLC, Mount Pleasant,
South Carolina; Caroline Wrenn Cleveland, Bob J.
Conley, Emmanuel Joseph Ferguson, CLEVELAND
& CONLEY, LLC, Charleston, South Carolina, for
Appellant. Shon Hopwood, Ann Marie Hopwood, LAW
OFFICE OF SHON HOPWOOD, PLLC, Washington,
D.C., for Appellee.
Unpublished opinions are not binding precedent in
this circuit.
PER CURIAM:
Beattie I. Butler, a former assistant public
defender with the Charleston County (“the County”)
Public Defenders Office, brought this action against
the County and D. Ashley Pennington, the Public
Defender for the Ninth Circuit, individually and in his
official capacity, raising several claims stemming
from the termination of Butler’s employment in 2014.
Defendants moved for summary judgment on Butler’s
claims, which the district court granted in part and
denied in part. Most relevant to this appeal,
Pennington asserted that he was entitled to qualified
immunity on Butler’s claim that Pennington violated
Butler’s First Amendment rights, in violation of 42
U.S.C. § 1981 (2018), when Pennington restricted

3a
Butler’s speech regarding possible prosecutorial
misconduct
and
later
terminated
Butler’s
employment in retaliation for his protected speech.
We affirm in part and dismiss in part.
Pennington purports to raise several issues on
appeal, but we may exercise jurisdiction only over
final orders, 28 U.S.C. § 1291 (2018), and certain
interlocutory and collateral orders, 28 U.S.C. § 1292
(2018); Fed. R. Civ. P. 54(b); Cohen v. Beneficial
Indus. Loan Corp., 337 U.S. 541, 545-47 (1949).
Although an order rejecting a claim of qualified
immunity is an appealable order at the summary
judgment stage, Mitchell v. Forsyth, 472 U.S. 511, 530
(1985), immediate appealability of an order rejecting
a government official’s qualified immunity defense is
appropriate only if the rejection rests on a purely legal
determination that the facts do not establish a
violation of a clearly established right, Iko v. Shreve,
535 F.3d 225, 234-36 (4th Cir. 2008). Thus, “if the
appeal seeks to argue the insufficiency of the evidence
to raise a genuine issue of material fact, [we] do[] not
possess jurisdiction under § 1291 to consider the
claim.” Valladares v. Cordero, 552 F.3d 384, 388 (4th
Cir. 2009).
Limiting our review to whether the district
court correctly determined it was clearly established
during the relevant time period that Butler
maintained a First Amendment right to report
alleged prosecutorial misconduct, we agree with the
district court that it was. See Durham v. Jones, 737
F.3d 291, 303-04 (4th Cir. 2013); Andrew v. Clark, 561
F.3d 261, 269 (4th Cir. 2009). We thus affirm the
district court’s order, in part. See Butler v.
Pennington, No. 2:15-cv-04455-BHH (D.S.C. Apr. 16,

4a
2019). We lack jurisdiction over the remainder of
Pennington’s appeal, which seeks to challenge the
district court’s determinations that genuine issues of
material of fact existed as to whether Pennington was
entitled to qualified immunity, and which the court
determined were issues appropriate for resolution by
a trier of fact.
Based on the foregoing, we affirm in part and
dismiss in part. We dispense with oral argument
because the facts and legal contentions are
adequately presented in the materials before this
court and argument would not aid the decisional
process.
AFFIRMED IN PART,
DISMISSED IN PART

5a
[ENTERED: March 10, 2020]
FILED: March 10, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT\
No. 19-1457
(2:15-cv-04455-BHH)
BEATTIE I. BUTLER
Plaintiff - Appellee
v.
D. ASHLEY PENNINGTON, in his individual and
official capacities
Defendant - Appellant
and
CHARLESTON COUNTY
Defendant
JUDGMENT
In accordance with the decision of this court,
the judgment of the district court is affirmed in part.
The appeal is dismissed in part.
This judgment shall take effect upon issuance
of this court’s mandate in accordance with Fed. R.
App. P. 41.
/s/ PATRICIA S. CONNOR, CLERK

6a
[ENTERED: April 16, 2019]
UNITED STATES DISTRICT COURT
DISTRICT OF SOUTH CAROLINA
CHARLESTON DIVISION
Beattie I. Butler,

) Civil Action No.
) 2:15-4455-BHH
Plaintiff,
)
vs.
)
)
D. Ashley Pennington, in his
) OPINION AND
individual and official capacities, )
ORDER
and Charleston County,
)
)
Defendants. )
)
This matter is before the Court for review of the
Report and Recommendation entered by United
States Magistrate Judge Bristow Marchant on
November 15, 2018 (“Report”). (ECF No. 151.) In
accordance with 28 U.S.C. § 636(b)(1)(B) and Local
Rule 73.02 for the District of South Carolina, this case
was referred to Magistrate Judge Marchant for
pretrial handling. In his Report, the Magistrate Judge
recommends that Defendant D. Ashley Pennington’s
(“Defendant” or “Pennington”) motion for summary
judgment on his counterclaim for defamation (ECF
No. 110), made in his individual capacity, be denied,
and that Defendants Pennington, in his official
capacity, and Charleston County’s (collectively
“Defendants”) motion for summary judgment on
Plaintiff’s claims (ECF No. 111) be granted in part
and denied in part. (See ECF No. 151 at 51.) The
Report sets forth in detail the relevant facts and

7a
standards of law, and the Court incorporates them
here, summarizing below only in relevant part. 1
BACKGROUND
This case arises out of a series of disputes, over
a span of years, between Plaintiff Beattie Butler
(“Plaintiff” or “Butler”), who served as an Assistant
Public Defender (“APD”) for Charleston County, and
Defendant Pennington, who was at all times relevant
to the amended complaint the Public Defender for the
Ninth Circuit and Plaintiff’s boss. Plaintiff joined the
Public Defender’s Office (“PD’s Office”) in 2003 and
over time became the most experienced litigator,
eventually being designated “director of litigation”
and later “chief litigator.” In essence, Plaintiff alleges
that, beginning in 2007, he possessed knowledge of
what he considered to be serious prosecutorial
misconduct perpetrated by attorneys from the Ninth
Circuit Solicitor’s Office, but that Pennington
prevented him from reporting the misconduct to the
Office of Disciplinary Counsel (“ODC”). Plaintiff
alleges that Defendant, at various times and in
various ways, ordered him not to speak or convey in
any manner to others comments that were critical of
the Solicitor (Scarlett Wilson) or her office, especially
regarding their ethics or honesty, without first
obtaining Defendant’s permission.
Nevertheless,
Plaintiff
consulted
with
members of the Board of Directors of the South
Carolina Association of Criminal Defense Lawyers
As always, the Court says only what is necessary to address the
parties’ objections against the already meaningful backdrop of a
thorough Report and Recommendation by the Magistrate Judge;
exhaustive recitation of law and fact exists there.

1

8a
(“SCACDL”) and assisted them in drafting a
grievance against Solicitor Wilson, which action was
contrary to Defendant’s wishes and advice to the
Board. Plaintiff subsequently began to question the
ethical propriety of his own compliance with
Defendant’s previous orders not to disclose the
alleged prosecutorial misconduct, and sought legal
counsel. Ultimately, Plaintiff’s ethics counsel sent
a letter to Defendant challenging Defendant’s
directives about reporting/non-reporting ethical
misconduct, and informing Defendant of Plaintiff’s
intent to “self-report” to the ODC his failure to
disclose knowledge of misconduct as a result of those
directives. Plaintiff later met with ODC staff to
satisfy what he believed to be his reporting obligation.
In April 2014, Plaintiff was diagnosed with
cancer and immediately began an intensive
treatment regimen including chemotherapy and
radiation. Plaintiff alleges that although he requested
FMLA leave due to his treatment and condition, he
never received official notification from Charleston
County’s Human Resource Office or any other county
office relating to this request. During the period that
Plaintiff was undergoing this cancer treatment, his
dispute with Defendant about reporting ethical
breaches by the Solicitor’s Office continued. Plaintiff
alleges that, while he was compromised by his disease
and treatment, Defendant sent him a list of detailed
questions seeking information related to the
Solicitor’s Office’s past alleged ethics violations and
regarding the Defendant’s prior orders to not file
grievances about said violations. Plaintiff met with
Defendant on September 29, 2014 to discuss these
matters, at which time Defendant requested further
written documentation of Plaintiff’s medical condition

9a
and prognosis. On October 14, 2014, Defendant
terminated Plaintiff’s employment with the PD’s
Office.
Plaintiff asserts the following claims in his
amended complaint: First Amendment retaliation,
prior restraint, and protected speech under 42 U.S.C.
§ 1983 (First Cause of Action); employment
discrimination in violation of the Americans with
Disabilities Act (“ADA”) (Second Cause of Action);
Family and Medical Leave Act (“FMLA”)—
interference with statutory rights (Third Cause of
Action); defamation—libel and slander per se (Fourth
Cause of Action); breach of implied contract (Fifth
Cause of Action); denial of due process under § 1983
(Sixth Cause of Action); and breach of contract—
intended third-party beneficiary (Seventh Cause of
Action). 2 (ECF No. 20 ¶¶ 41–174.)
Defendant Pennington, in his individual
capacity, asserts a counterclaim for defamation and
slander per se. (Second Am. Answer, ECF No. 41 at
23–28.) In the counterclaim, Defendant alleges that
Plaintiff, after having been specifically instructed not
to speak on behalf of the PD’s Office without first
receiving clearance from Defendant, responded to
press inquiries from the Post and Courier regarding
alleged misconduct by the Solicitor’s Office in direct
violation of Defendant’s instructions. Defendant
further alleges that Plaintiff’s constant criticism of
the Solicitor’s Office reflected poorly on the PD’s
Office, fostered division within that office, and was
generally counterproductive. According to Defendant,
Plaintiff has abandoned both his Sixth and Seventh Causes of
Action. (See ECF No. 151 at 15 n.12.) Accordingly, those claims
will not be addressed in this order.
2

10a
Plaintiff held continuing personal animosity against
Solicitor Wilson for having filed a professional
grievance against Plaintiff several years earlier.
Defendant avers that Plaintiff told numerous
attorneys the falsehood that Defendant ordered
Plaintiff not to file a grievance against the Solicitor,
thereby inferring that Defendant was unethically
“covering for” or protecting the Solicitor at the
expense of the best interests of the PD’s clients and
the community. Defendant identifies nine individuals
to whom Plaintiff made this allegedly false statement.
Moreover, Defendant asserts that Plaintiff
repeated this false statement to South Carolina
Lawyer’s Weekly reporter Phillip Bantz (“Bantz”) in
April 2014, and that the false statement was
published statewide by the Lawyer’s Weekly to
members of the South Carolina Bar and the broader
community. Defendant contends that the statement
that he had ordered Plaintiff not to file a grievance
against the Solicitor, and the repetition of the
statement, was both false and published by Plaintiff
with the intent of showing Defendant was unethical
and unfit for his profession. Defendant alleges that
when he asked Plaintiff in September 2014 to provide
the date, time, and location of any such alleged orders,
Plaintiff was unable to provide the information.
Finally, Defendant alleges that he terminated
Plaintiff’s employment due to Plaintiff’s false
accusations
against
Defendant,
Plaintiff’s
insubordinate and divisive statements and conduct as
a senior staff member directed to subordinate staff
and third parties, and Plaintiff’s inability to control
his animosity toward other lawyers and act

11a
constructively for the welfare of his clients in
coordination with his employer, the PD’s Office.
On April 13, 2018, Defendants filed a motion
for summary judgment on Plaintiff’s claims, and
Pennington, in his individual capacity, filed a motion
for summary judgment on his counterclaim. (ECF
Nos. 110 & 111.) The motions were fully briefed. (ECF
Nos. 115, 116, 121, 122, 124, 127.) The Magistrate
Judge held a hearing on, inter alia, the motions for
summary judgment. (ECF Nos. 131 & 132.) The case
was reassigned to the undersigned on September 10,
2018. (ECF No. 137.) On November 15, 2018, the
Magistrate Judge issued his Report. (ECF No. 151.)
The parties filed timely objections and replies. (ECF
No. 154, 155, 156, 157.) The matter is ripe for
consideration and the Court now makes the following
ruling.
STANDARD OF REVIEW
The Magistrate Judge makes only a
recommendation to this Court. The recommendation
has no presumptive weight, and the responsibility to
make a final determination remains with the Court.
See Mathews v. Weber, 423 U.S. 261 (1976). The Court
is charged with making a de novo determination of
any portion of the Report of the Magistrate Judge to
which a specific objection is made. The Court may
accept, reject, or modify, in whole or in part, the
recommendation made by the Magistrate Judge or
recommit the matter to the Magistrate Judge with
instructions. See 28 U.S.C. § 636(b). In the absence of
a timely filed objection, a district court need not
conduct a de novo review, but instead must “only
satisfy itself that there is no clear error on the face of

12a
the record in order to accept the recommendation.”
Diamond v. Colonial Life & Acc. Ins. Co., 416 F.3d
310, 315 (4th Cir. 2005).
DISCUSSION
A. Defendant Pennington’s Defamation
Counterclaim
The Magistrate Judge concluded that
Defendant Pennington’s motion for summary
judgment on his defamation counterclaim should be
denied. The Report notes that Defendant offered
evidence of comments made by Plaintiff which are
arguably actionable under a defamation theory,
including that Defendant was unable to perform his
job, that no one would want him representing them,
that his legal skills were lacking, that he was
incompetent and a poor administrator, that he was
unable to perform his job, that he was unwilling as
the Public Defender “to really fight with the Solicitor’s
office,” and that he would not permit Plaintiff to file
grievances. (ECF No. 151 at 12 (citing deposition
excerpts).) However, the Magistrate Judge found that
there is a clear factual dispute between Plaintiff and
Defendant about whether Defendant ordered Plaintiff
not to file a grievance, which is a question of fact for
the jury. (Id. at 13.) Moreover, the Magistrate Judge
concluded that genuine issues of material fact remain
with respect to whether the statements at issue were
mere opinion and did not convey defamatory
meaning, or were indeed defamatory in nature, and/or
were made with malice and truly damaged
Defendant’s reputation. (Id. at 14.) Accordingly, the
Magistrate Judge reasoned that the facts and
evidence presented do not establish defamation as a

13a
matter of law, and Defendant is not entitled to
summary judgment on his counterclaim. (Id.)
Though he agrees with the Magistrate Judge’s
conclusion that Defendant is not entitled to summary
judgment on the defamation counterclaim, Plaintiff
objects “on the basis of lack of federal subject matter
jurisdiction” to consideration of “certain statements
referenced in the [Report’s] discussion of Defendant’s
counterclaim.” (ECF No. 155 at 7.) The Court finds
that the factual questions surrounding the
statements relevant to Defendant’s counterclaim fall
within the Court’s supplemental jurisdiction. The
objection is without merit and is overruled.
The Court agrees with the sound reasoning and
conclusions of the Magistrate Judge pertaining to the
defamation counterclaim, and finds no error therein.
Accordingly, the motion for summary judgment on the
counterclaim is denied.
B. Plaintiff’s First Amendment Section
1983 Claim
With respect to Plaintiff’s § 1983 claim alleging
violation of his rights under the First Amendment to
the U.S. Constitution (First Cause of Action), the
Magistrate Judge first concluded that Defendant
Pennington, in his official capacity, is entitled to
dismissal as a party defendant to Plaintiff’s First
Amendment claim because he enjoys Eleventh
Amendment immunity from any suit for damages
under § 1983. (ECF No. 151 at 15–17.) Plaintiff
objects to this conclusion in part, arguing that, to the
extent his First Amendment claim seeks injunctive
relief—namely, reinstatement for a retaliatory
firing—Eleventh Amendment immunity does not

14a
apply, and Defendant Pennington, in his official
capacity, should not be fully dismissed as a party
defendant to the First Cause of Action. (ECF No. 155
at 3–4.) Plaintiff is correct and the objection is
sustained. The U.S. Supreme Court has stated, “[A]
state official in his or her official capacity, when sued
for injunctive relief, would be a person under § 1983
because official-capacity actions for prospective relief
are not treated as actions against the State.” Will v.
Michigan Dep’t of State Police, 491 U.S. 58, 71 n.10
(1989) (emphasis added) (citations and quotation
marks omitted). Accordingly, Defendants’ motion for
summary judgment is granted insofar as it seeks
dismissal of Defendant Pennington, in his official
capacity, from the First Cause of Action for damages,
but denied insofar as it seeks dismissal of Defendant
Pennington, in his official capacity, from the First
Cause of Action for injunctive relief. (See ECF No. 20
¶ 57 (seeking reinstatement and other injunctive
relief as remedfies for alleged First Amendment
violations).)
The Magistrate Judge next found that Plaintiff
has presented no evidence of any unconstitutional
policy adopted and promulgated by Defendant
Charleston County or its officers—in this case
Pennington—so as to subject Charleston County to
liability on the First Amendment claim. (ECF No. 151
at 17–18.) The Magistrate Judge stated, “Plaintiff has
failed to point to any ordinance or policy of Charleston
County that Pennington would have been following by
engaging in the improper conduct alleged, and the
county may only be liable for damages if the execution
of a policy or custom of the county itself is what
resulted in the alleged injury.” (Id. at 18 (emphasis
added) (citing Monell v. Dep’t of Social Servs., 436

15a
U.S. 658, 694 (1978); Milligan v. City of Newport
News, 743 F.2d 227, 229 (4th Cir. 1984); Leatherman
v. Tarrant County Narcotics Intelligence &
Coordination, 507 U.S. 163, 166 (1993)).) The Report
further notes that, as the Ninth Circuit Public
Defender, Pennington is considered to be an employee
of the State of South Carolina, not Charleston County.
(Id.) Thus, the Magistrate Judge concluded that
Defendant Charleston County is entitled to dismissal
as a party defendant to Plaintiff’s First Cause of
Action. (Id. at 19.)
Plaintiff objects to this conclusion, arguing that
Defendant Pennington is the “final policy maker”
with respect to hiring, firing, and directing the duties
of PD’s Office employees, who are all employees of
Charleston County. (ECF No. 155 at 5.) He further
asserts that, irrespective of Pennington being
“labelled a ‘state employee,’” Pennington is acting for,
and on behalf of, Charleston County when making
hiring and firing decisions regarding PD’s Office
personnel. (Id. at 6.) However, this objection
misconstrues both what it means to be a “final policy
maker” and the nature of the “policy” being
challenged in the First Amendment claim.
“‘[P]olicymaking authority’ implies authority to set
and implement general goals and programs of
municipal government, as opposed to discretionary
authority in purely operational aspects of
government.” Spell v. McDaniel, 824 F.2d 1380, 1386
(4th Cir. 1987) (citations omitted). Pennington’s
decision to terminate Plaintiff was operational and
discretionary in nature, and Plaintiff has not shown
that Pennington was a “final policy maker” in this
regard. Moreover, the “policy” being challenged in the
First Amendment claim is Pennington’s alleged order

16a
to Plaintiff and other PD’s Office personnel not to
report ethical misconduct without first receiving his
approval. Plaintiff’s firing is incidental to this
“policy,” though in Plaintiff’s view, causally related.
Plaintiff has not offered any evidence to show that
Pennington was acting on behalf of Charleston
County when he allegedly imposed such a policy.
Accordingly, the objection is overruled and
Defendants’ motion for summary judgment is granted
to the extent it seeks dismissal of Charleston County
as a party defendant to the First Cause of Action.
Regarding Plaintiff’s § 1983 claims against
Defendant Pennington in his individual capacity, the
Magistrate Judge determined that, when considered
in the light most favorable to Plaintiff, the record
evidence reflects that Plaintiff sought to engage in
speech designed to bring public attention to what he
believed to be serious prosecutorial misconduct by the
Ninth Circuit Solicitor, and that Defendant
attempted to prevent him from engaging in that
speech by way of his role as Plaintff’s boss. (ECF No.
151 at 19–23.) Thus, the Magistrate Judge found that
Pennington is not entitled to summary judgment on
Plaintiff’s prior restraint claim. (Id. at 23.)
Defendants object to these findings, arguing
that Pennington did not restrain Plaintiff’s speech in
violation of the First Amendment. (ECF No. 154 at 3.)
Defendants broadly argue that: (1) Plaintiff has not
presented evidence that his speech was “citizen
speech” related to “matters of concern to the public”;
(2) Plaintiff has not presented adequate evidence that
Pennington restrained his speech in an unlawful
manner; and (3) Pennington’s interest in managing
and operating his office outweighed Plaintiff’s

17a
interest in engaging in the allegedly protected speech.
(Id. at 3–6.) The Court disagrees, and finds that: (1)
there is sufficient evidence in the record to conclude
that the speech at issue was not purely personal, but
related to a matter of significant public concern—
namely, alleged ethical misconduct by the local
prosecutor’s office in a serious criminal case(s); (2)
there is adequate evidence to create a jury issue as to
whether Pennington restrained Plaintiff’s speech
unlawfully—by ordering Plaintiff not to disclose
alleged ethical misconduct of which he had knowledge
and regarding which he maintained a perceived duty
to report; and (3) the question whether Pennington’s
legitimate managerial interest outweighed Plaintiff’s
First Amendment interests presents a genuine
dispute of material fact for resolution by a jury.
Defendants have not shown any error in the
Magistrate Judge’s sound reasoning and conclusions
on these matters, and the objection is overruled.
The Magistrate Judge further concluded that
Plaintiff’s First Amendment retaliation claim is not
subject to summary judgment because there is a
sufficient question of fact as to whether the speech at
issue is protected, as well as a genuine dispute
regarding whether Plaintiff’s having engaged in
protected speech was the motivating cause for his
discharge. (Id. at 23–24.) Specifically, the Magistrate
Judge found that the evidence, considered in the light
most favorable to Plaintiff, demonstrates that
Pennington’s decision to terminate Plaintiff’s
employment arose from Plaintiff’s public comments
about the Solicitor’s Office, including with the
SCACDL Board of Directors and to the press. (Id. at
24.) Accordingly, the Magistrate Judge recommended
that Defendants’ motion for summary judgment on

18a
Plaintiff’s § 1983 retaliatory discharge claim be
denied. (Id.)
Defendants object, arguing that the Report
allows Plaintiff to create and rely upon a “sham issue
of fact” in order to avoid the entry of summary
judgment on the retaliation claim. (ECF No. 154 at 6.)
Here Defendants aver that Plaintiff set up, and swore
to, contradictory theories, where in one claim of his
verified amended complaint he asserts that his
disability was the “but for” cause of his termination
(employment discrimination based on disability in
violation of the ADA, Second Cause of Action), and in
another claim he contends that “speaking out” against
prosecutorial
misconduct and violating
the
unconstitutional restraints Pennington imposed him
was the but for cause (First Amendment retaliation
theory, First Cause of Action). (Id. at 6–8.)
Defendants assert that by failing to acknowledge or
examine this inconsistency in Plaintiff’s sworn
statements, including his charge of discrimination to
the EEOC, verified complaint, verified amended
complaint, and deposition testimony, the Magistrate
Judge erroneously allowed Plaintiff to manufacture
an issue of fact, which the Magistrate Judge then
relied upon in recommending that summary
judgment be denied. (Id. at 8.) Defendants state that
the Report, “in this respect, is wrong, inconsistent
with well-established law and in error.” (Id.)
The Court disagrees that the Magistrate Judge
relied upon a “sham issue of fact,” and overrules the
objection. Paragraph 52 of the verified amended
complaint states: “Defendant Pennington ultimately
terminated Plaintiff’s employment because of his
criticism of Solicitor Wilson in violation of Defendant

19a
Pennington’s restrictions on Plaintiff’s speech as
described herein and because of Plaintiff’s
involvement in grievances filed against Solicitor
Wilson and her office.” (ECF No. 20 at 16.) This is a
clear statement of causation, wherein Plaintiff
represents that engaging in speech protected by the
First Amendment directly led to his firing. (See also
Opp’n to Mot. Summ. J., ECF No. 115 at 22–25
(arguing that Plaintiff was fired for exercising and
attempting to exercise protected speech).) With
respect to Plaintiff’s ADA claim, paragraph 79 of the
verified amended complaint states: “Defendant
Pennington had knowledge of Plaintiff’s disability
and intentionally and willfully discriminated against
Plaintiff based on that disability in direct violation of
the ADA by terminating Plaintiff’s employment on
October 14, 2014, in the midst of his on-going course
of chemotherapy treatments.” (Id. at 22.) Paragraph
80 states:
Upon information and belief, Defendant
Pennington deliberately attempted to
take advantage of Plaintiff’s weakened
physical condition from the cancer
treatments to inflict greater harm on
Plaintiff than would have been possible
if Plaintiff were healthy. Upon
information and belief, Defendant
Pennington also used the timing of
termination in the midst of Plaintiff’s
health crisis in an attempt to force
Plaintiff to accept a severance payment
of approximately two weeks’ pay, plus
three months of continuation of health
benefits under COBRA in exchange for
Plaintiff’s waiving any legal claims

20a
arising out of his employment or
termination. Plaintiff refused to accept
the severance proposal.
(Id.) Plaintiff’s charge of discrimination to the EEOC
alleges: “My termination of October 14, 2014 was
strategically timed during a specific course of my
treatment that was especially debilitating and
physically demanding. But for my illness, I would not
have been terminated at that time. But for my
condition I would not have been let go when and [sic]
the manner I was treated, due to my illness.” (ECF
No. 111-15 at 2.) Plaintiff argues that these
averments, taken together, represent a “novel claim
under ADA law” that Pennington used the timing of a
particularly difficult stage of his illness and
treatment to take advantage of his cancer disability
when effecting his termination. (See Pl.’s Reply to
Defs.’ Objections, ECF No. 157 at 10–14 & n.12.)
Plaintiff states, “[I]t is not now, nor has it ever been
Plaintiff’s position that Pennington fired him ‘because
he was disabled by cancer.’” (Id. at 12.) Without
expressing any opinion on the viability of Plaintiff’s
“novel” disability discrimination theory, the
undersigned finds that it is not fundamentally at odds
with Plaintiff’s core assertion that he was fired for
making ethical allegations against personnel from the
Solicitor’s Office. Finding no error in the Magistrate
Judge’s conclusions and recommendation regarding
the First Amendment retaliation claim, the Court
denies summary judgment as to that claim within the
First Cause of Action.
As to qualified immunity, the Magistrate
Judge noted that he had already determined that a
genuine issue of material fact remains regarding

21a
whether Pennington violated Plaintiff’s First
Amendment rights by preventing Plaintiff from
discussing or commenting on a matter of public
concern. (Id. at 24–25.) The Magistrate Judge next
concluded that it was clearly established during the
relevant time period that even a public employee’s
First Amendment rights could be violated where the
countervailing government interest motivating the
restraint was insufficient to outweigh the employee’s
right to address an issue of public concern. (See id. at
25–26.) Therefore, the Magistrate Judge reasoned
that Defendant Pennington is not entitled to
dismissal of Plaintiff’s First Amendment claims based
on qualified immunity because there is a genuine
issue of fact as to whether Pennington’s conduct
violated a clearly established constitutional right of
which a reasonable person would have known. (Id. at
26 (citing Wiley v. Doory, 14 F.3d 993, 995 (4th Cir.
1994) (holding that qualified immunity shields a
government official from liability only if the official’s
conduct did not violate clearly established statutory
or constitutional rights of which a reasonable person
would have known)).)
Defendants object to these conclusions, arguing
that even if Pennington did restrain Plaintiff’s speech
in violation of the First Amendment, Pennington, in
his individual capacity, is entitled to qualified
immunity because an unlawful restraint was not
established “beyond debate.” (ECF No. 154 at 3.)
Defendants assert that the right at issue was not
clearly established, and that the Magistrate Judge
relied upon inapplicable precedent, precedent postdating the events at issue, and precedent from
jurisdictions other than the U.S. Supreme Court or
the Fourth Circuit in finding that summary judgment

22a
was not appropriate. (Id. at 8–11.) Defendants further
contend that when considering the right that Butler
alleges Pennington violated, the Court must not
define the right as a broad general proposition, but in
light of the specific context of the case. (Id. at 11
(citing Mullinex v. Luna, 136 S. Ct. 305, 308 (2015);
McKinney v. Richland Cty. Sheriff’s Dep’t, 431 F.3d
415, 417 (4th Cir. 2005); Wiley v. Doory, 14 F.3d 993,
995 (4th Cir. 1994)).)
The Fourth Circuit has explained the legal
principles governing the First Amendment rights of
public employees in the following manner:
It is well settled that citizens do not
relinquish all of their First Amendment
rights by virtue of accepting public
employment. See United States v.
National Treasury Employees Union,
513 U.S. 454, 465, 115 S. Ct. 1003, 130
L.Ed.2d 964 (1995) [hereinafter NTEU];
Connick v. Myers, 461 U.S. 138, 142, 103
S.Ct. 1684, 75 L.Ed.2d 708 (1983);
Pickering v. Board of Educ., 391 U.S.
563, 568, 88 S. Ct. 1731, 20 L.Ed.2d 811
(1968). Nevertheless, the state, as an
employer,
undoubtedly
possesses
greater authority to restrict the speech
of its employees than it has as sovereign
to restrict the speech of the citizenry as
a whole. See Waters v. Churchill, 511
U.S. 661, 671, 114 S. Ct. 1878, 128
L.Ed.2d 686 (1994) (plurality opinion)
(recognizing that “the government as
employer . . . has far broader powers
than
does
the
government
as

23a
sovereign”); Pickering, 391 U.S. at 568,
88 S. Ct. 1731 (explaining that “the State
has interests as an employer in
regulating the speech of its employees
that differ significantly from those it
possesses in connection with regulation
of the speech of the citizenry in
general”). A determination of whether a
restriction imposed on a public
employee’s speech violates the First
Amendment requires “‘a balance
between the interests of the [employee],
as a citizen, in commenting upon
matters of public concern and the
interest of the State, as an employer, in
promoting the efficiency of the public
services it performs through its
employees.’” Connick, 461 U.S. at 142,
103 S. Ct. 1684 (alteration in original)
(quoting Pickering, 391 U.S. at 568, 88 S.
Ct. 1731). This balancing involves an
inquiry first into whether the speech at
issue was that of a private citizen
speaking on a matter of public concern.
If so, the court must next consider
whether the employee’s interest in First
Amendment expression outweighs the
public employer’s interest in what the
employer has determined to be the
appropriate operation of the workplace.
See Pickering, 391 U.S. at 568, 88 S. Ct.
1731.
The threshold inquiry thus is whether
the Act regulates speech by state
employees in their capacity as citizens

24a
upon matters of public concern. If a
public employee’s speech made in his
capacity as a private citizen does not
touch upon a matter of public concern,
the state, as employer, may regulate
it without infringing any First
Amendment protection. See Connick,
461 U.S. at 146, 103 S. Ct. 1684
(explaining that if a plaintiff’s speech
“cannot be fairly characterized as
constituting speech on a matter of public
concern, it is unnecessary . . . to
scrutinize the reasons for [the]
discharge”); Holland v. Rimmer, 25 F.3d
1251, 1254–55 & n. 11 (4th Cir. 1994).
Whether speech is that of a private
citizen addressing a matter of public
concern is a question of law for the court
and, accordingly, we review the matter
de novo. See Connick, 461 U.S. at 148 n.
7, 103 S. Ct. 1684; Hall v. Marion Sch.
Dist. Number 2, 31 F.3d 183, 192 (4th
Cir. 1994); Holland, 25 F.3d at 1255.
Urofsky v. Gilmore, 216 F.3d 401, 406 (4th Cir. 2000)
(modifications in original). “When applying this
Pickering balancing test, the Supreme Court has
suggested that ‘the Government’s burden is greater’
in cases like that at hand, involving ‘potential speech
before it happens’ than in cases involving ‘an adverse
action taken in response to actual speech.’” Mansoor
v. Trank, 319 F.3d 133, 137 (4th Cir. 2003). Viewing
the facts in the light most favorable to Plaintiff, the
Court finds that Butler’s proposed speech—namely,
exposing alleged prosecutorial misconduct—was
citizen speech on a matter of public concern, and that

25a
Butler’s interest in communicating that speech was
not outweighed by Pennington’s interest in efficient
operation of the PD’s Office.
The Fourth Circuit has stated, “‘We do not
require a case directly on point’ in order to conclude
that the law was clearly established, ‘but existing
precedent must have placed the statutory or
constitutional question beyond debate.’” Liverman v.
City of Petersburg, 844 F.3d 400, 411 (4th Cir. 2016)
(quoting Ashcroft v. al–Kidd, 563 U.S. 731, 741
(2011)). “[I]t was clearly established in the law of this
Circuit in September 2009 that an employee’s speech
about serious governmental misconduct, and
certainly not least of all serious misconduct in a law
enforcement agency . . ., is protected.” Durham v.
Jones, 737 F.3d 291, 303–04 (4th Cir. 2013) (citing
Andrew v. Clark, 561 F.3d 261, 269 (4th Cir. 2009)).
The Court finds that, at times relevant to the alleged
events, it was clearly established that Butler
maintained a First Amendment right to report
alleged prosecutorial misconduct by the Ninth Circuit
Solicitor’s Office. Accordingly, Defendants’ objections
are overruled, the Magistrate Judge’s reasoning and
conclusions are adopted, and the Court holds that
Defendant Pennington, in his individual capacity, is
not entitled to qualified immunity.
C. Americans with Disabilities Act Claim
With regard to Plaintiff’s Second Cause of
Action, the Magistrate Judge found that: (1) Plaintiff
cannot bring an ADA claim against Defendant
Pennington in his official capacity under Title I of the
ADA—specifically, 42 U.S.C. §§ 12111(8) and
12112(a)—for damages; (2) Pennington in his official

26a
capacity is entitled to dismissal insofar as Plaintiff
asserts a claim under Title II of the ADA—
specifically, 42 U.S.C. §§ 12102(2) and 12132; (3)
Pennington in his official capacity is entitled to
dismissal as a party defendant to the Second Cause of
Action; and (4) Plaintiff may proceed with his ADA
claim against Defendant Charleston County because
he was a Charleston County employee, and
Charleston County is subject to, and may be found
liable for, violations of Title I of the ADA. (ECF No.
151 at 27–28.)
Plaintiff’s verified amended complaint alleges
that he suffers from rectal cancer, that the condition
was a “disability” within the meaning of the ADA
during the relevant time period, and that Pennington
failed to grant his request for additional time to
respond to questions that Pennington required
Plaintiff to answer about their ongoing dispute over
reporting alleged misconduct by the Solicitor’s Office,
as well as details regarding Pennington’s alleged
orders to Plaintiff to not report the alleged
misconduct. (See generally ECF No. 20 ¶¶ 61–83.)
Plaintiff further alleges that Pennington took
advantage of his weakened state, during a
debilitating round of chemotherapy treatments, to
terminate his employment in an attempt to force
Plaintiff to accept an unfavorable severance package.
(Id.) The Magistrate Judge concluded that there is
sufficient record evidence to give rise to a genuine
issue of fact as to whether Defendants refused to
provide a reasonable accommodation that had been
requested by Plaintiff, namely an extension of time in
which to answer Pennington’s detailed questions.
(ECF No. 151 at 30–32.) Therefore, the Magistrate
Judge found that Charleston County is not entitled to

27a
summary judgment on the Second Cause of Action.
(Id. at 32.)
Plaintiff objects broadly to the Magistrate
Judge’s conclusions regarding the viability of the ADA
claim against Defendant Pennington. Plaintiff states,
“For reasons now lost to memory, Plaintiff
erroneously sued Pennington in his ‘official capacity.’
He should have been sued in his individual capacity,
and will suffer no prejudice if Plaintiff is allowed to
amend his complaint.” (ECF No. 155 at 11.) Plaintiff
cannot amend his complaint by way of objections to a
Report and Recommendation on a motion for
summary judgment. The objection is overruled.
Defendants object by noting the Magistrate
Judge’s prior conclusion, when addressing Plaintiff’s
First Amendment claims, that Defendant Pennington
is considered to be an employee of the State of South
Carolina, not Charleston County. (ECF No. 154 at 12.)
They cite McMillian v. Monroe Cty., Ala., 520 U.S.
781, 784–93 (1997), in support of their assertion that
the Magistrate Judge, when addressing Plaintiff’s
ADA claim, erred by considering Pennington to be an
agent of Charleston County. However, the question
presented in McMillan was whether an Alabama
sheriff, when executing his law enforcement duties in
the course of criminal investigations, was acting as a
policy maker for the State of Alabama or for the
particular county that he served, such that the county
could be liable under 42 U.S.C. § 1983 for alleged
violations of the plaintiff’s constitutional rights by
way of the sheriff concealing evidence of the plaintiff’s
innocence during a murder investigation and trial.
See McMillan, 520 U.S. at 783–93. The substantive
context in McMillan is entirely different than the case

28a
at bar. To the extent that McMillan has any relevance
here, it actually counsels against sustaining
Defendants’ objection. In McMillan the Supreme
Court stated, with respect to local government
liability, “[T]he question is not whether [the
government official in question] acts for [the state] or
[the county] in some categorical, ‘all or nothing’
manner. Our cases on the liability of local
governments under § 1983 instruct us to ask whether
governmental officials are final policymakers for the
local government in a particular area, or on a
particular issue.” Id. at 785 (emphasis added).
Moreover, after noting that the inquiry is dependent
on an analysis of state law, the McMillan court stated:
This is not to say that state law can
answer the question for us by, for
example, simply labeling as a state
official an official who clearly makes
county policy. But our understanding of
the actual function of a governmental
official, in a particular area, will
necessarily be dependent on the
definition of the official’s functions
under relevant state law.
Id. at 786 (emphasis added). In the instant case, there
is no question that Defendant Pennington, who was
Plaintiff’s boss, was acting on behalf of Plaintiff’s
employer, Charleston County, when he took actions
with respect to the terms of Plaintiff’s employment,
such as whether or not to grant accommodations for a
disability. This is true notwithstanding the fact that
Pennington is technically a state employee.
Accordingly, this portion of the objection is without
merit.

29a
However, Defendant’s next objection, arguing
that Plaintiff cannot bring a failure to accommodate
claim under the ADA because his charge of
discrimination did not allege a failure to
accommodate, is correct and is therefore sustained.
(ECF No. 154 at 13.) Butler’s charge of discrimination
alleges that Pennington strategically timed his
termination during a period when the treatment he
was receiving for his illness was most debilitating and
physically draining. (See ECF No. 111-15 at 2.) The
charge of discrimination says nothing of an alleged
failure to accommodate by way of an unwillingness to
grant an extension of time in which to answer
Pennington’s interrogatory-style questions. (See id.)
Plaintiff seeks to avoid the consequence of this fact by
arguing that “[t]he accommodation claim was added
by letter dated June 12, 2015. Butler’s employment
lawyer wrote to the EEOC federal investigator,
explaining in detail the accommodation Butler
requested, and Mr. Pennington’s refusal to grant it.”
(ECF No. 157 at 14; see ECF No. 111-12 at 18-19.) But
the absence of the failure to accommodate allegation
in the charge of discrimination is fatal to the viability
of that pleading theory in this Court:
The EEOC charge “defines the scope of
the plaintiff’s right to institute a civil
suit.” Bryant v. Bell Atl. Md., Inc., 288
F.3d 124, 132 (4th Cir. 2002).
As
stated by the Fourth Circuit Court of
Appeals: “In any subsequent lawsuit
alleging unlawful employment practices
under Title VII, a federal court may
only consider those allegations included
in the EEOC charge.” Balas v.
Huntington Ingalls Indus., Inc., 711

30a
F.3d 401, 407 (4th Cir. 2013) (citation
omitted). If the plaintiff’s claims “‘exceed
the scope of the EEOC charge and any
charges that would naturally have
arisen from an investigation thereof,
they are procedurally barred.’” Chacko v.
Patuxent Inst., 429 F.3d 505, 506 (4th
Cir. 2005) (quoting Dennis v. Cty. of
Fairfax, 55 F.3d 151, 156 (4th Cir.
1995)).
Allen v. Michelin N. Am., Inc. - USA, No. CV 6:18-791TMC-KFM, 2018 WL 4346226, at *2 (D.S.C. Aug. 16,
2018) (holding ADA claim for failure to accommodate
was barred where failure to accommodate was
not alleged in the administrative charge of
discrimination), report and recommendation adopted
sub nom. Allen v. Michelin N. Am., Inc., No. 6:18-CV00791-TMC, 2018 WL 4334899 (D.S.C. Sept. 11,
2018); Cox v. Nucor Corp., No. 2:16-cv-03073-PMDMGB, 2017 WL 9250339, *2–*5 (D.S.C. June 14,
2017) (same). Therefore, Defendants’ motion for
summary judgment is granted to the extent that the
Second Cause of Action purports to state a claim for
failure to accommodate pursuant to the ADA. The
relevant portion of the Magistrate Judge’s Report (see
ECF No. 151 at 26–32) is modified accordingly.
Defendants further object to the Magistrate
Judge’s conclusion that the ADA claim may proceed
against Charleston County even though the County is
not specifically named as a respondent in the
administrative charge. (ECF No. 154 at 14.)
Defendants argue that the Magistrate Judge
inappropriately applied the “substantial identity” test
because there is no evidence in the record that the

31a
County participated in the conciliation process when
Butler’s EEOC charge was pending, and there is no
evidence that the County was aware of Butler’s EEOC
charge until he filed and served his verified
complaint. (Id. at 15.)
The Court agrees and sustains the objection. In
finding that Charleston County was not entitled to
dismissal on the ground that it was not named in
Plaintiff’s EEOC filing, the Magistrate Judge relied
upon an exception to the general rule that an action
under Title VII may generally only be brought against
the respondent named in the charge. (See ECF No.
151 at 29–30.) The exception may apply where the
defendant not named in the charge received fair
notice and where the EEOC was able to attempt
conciliation with the responsible parties. See Equal
Employment Opportunity Comm’n v. Am. Nat. Bank,
652 F.2d 1176, 1186 n.5 (4th Cir. 1981) (noting that
some courts have developed an exception to this rule
“where it is clear that the defendant through some
relationship with the named respondent had notice of
the charges and participated in the conciliation
process”). However, it should be noted that, other
than an oblique reference to this exception in a
footnote, it does not appear that the Fourth Circuit
has directly recognized or adopted this exception. “In
applying this exception, some courts have used the
‘substantial identity’ test, finding that if unnamed
defendants are substantially or functionally identical
to named ones, then the plaintiff may sue all
defendants in a district court action, despite the
failure to name some of them in the administrative
action.” Scurry v. Lutheran Homes of S.C., Inc., No.
CA 3:13-2808-JFA-PJG, 2014 WL 4402797, at *3
(D.S.C. Sept. 3, 2014) (citation omitted). Moreover,

32a
[i]n determining whether the named and
unnamed defendants are substantially
identical, courts have applied the
following factors: (1) whether the role of
the unnamed party could through
reasonable effort by the complainant be
ascertained at the time of the filing of
the EEOC charge; (2) whether, under
the circumstances, the interests of a
named party are so similar to the
unnamed party’s that for purposes of
obtaining voluntary conciliation and
compliance it would be unnecessary to
include the unnamed party in the EEOC
proceedings; (3) whether the unnamed
party’s absence from the EEOC
proceedings resulted in actual prejudice
to the interests of the unnamed party;
and (4) whether the unnamed party has
in some way represented to the
complainant that its relationship with
the complainant is to be through the
named party.
Id. The Court finds: (1) that Plaintiff could, through
reasonable effort, have ascertained the role of
Charleston County at the time the EEOC charge was
filed; (2) Plaintiff has not shown that the interests of
Defendant Pennington, in his official capacity, and
Charleston County are so similar that it would be
unnecessary to include the County in the conciliation
process; (3) it is impossible to determine whether
Charleston County’s absence from the EEOC
proceedings resulted in actual prejudice because it
would be inappropriate to make ex post assumptions
about how the County would have conducted itself if

33a
it had been included in the conciliation process; and
(4) Plaintiff has not shown that Charleston County
somehow represented to Plaintiff that its relationship
with Plaintiff was to be through Defendant
Pennington. Therefore, the Court concludes that
Plaintiff has not made an adequate showing that
Defendant Pennington and Charleston County were
substantially identical for the purposes of Butler’s
disability discrimination claim. Consequently,
Defendants’ motion for summary judgment is granted
to the extent that it seeks dismissal of Charleston
County as a party defendant to the ADA claim. The
relevant portion of the Magistrate Judge’s Report (see
ECF No. 151 at 26–32) is modified accordingly.
D. Family and Medical Leave Act Claim
With respect to Plaintiff’s Third Cause of
Action, the Magistrate Judge determined that: (1)
Defendant Pennington, in his official capacity, is an
arm of the State and cannot therefore be sued for
monetary damages under Plaintiff’s FMLA claim by
virtue of the Eleventh Amendment; (2) Pennington, in
his individual capacity, is entitled to dismissal as a
party defendant to the FMLA claim because Plaintiff
has not set forth factual allegations in his verified
amended complaint to establish that Pennington was
ever acting other than in his official capacity when
making the decisions or taking the actions at issue in
the claim, the evidence does not create an issue of fact
as to whether Pennington was acting ultra vires for
purposes of the claim, and binding authority Fourth
Circuit authority precludes FMLA liability for state
employees in their individual capacities; and (3)
Defendant Charleston County is subject to liability
for Plaintiff’s FMLA claim under an “interference”

34a
theory, specifically relating to the calculation of
Plaintiff’s leave time, and is not entitled to summary
judgment on the claim. (ECF No. 151 at 33–40.)
Plaintiff objects to the Magistrate Judge’s
conclusion that Pennington cannot be sued in his
individual capacity for violations of the FMLA,
specifically taking issue with the Magistrate Judge’s
determination that the State, and not Pennington,
was the real party in interest. (ECF No. 155 at 12–
15.) However,
[c]ontrolling Fourth Circuit authority
holds claims against state employees
in their individual capacities under
the FMLA are barred by Eleventh
Amendment immunity when the state is
the real party in interest. Martin v.
Wood, 772 F.3d 192, 196 (4th Cir. 2014).
The state is the real party in interest
when “the allegedly unlawful actions of
the
state
officials
[were]
‘tied
inextricably to their official duties.’” Id.
McKay v. Med. Univ. of S.C., No. CV 2:17-45-RMG,
2017 WL 3477799, at *3 (D.S.C. Aug. 14, 2017)
(dismissing all FMLA claims against individual
defendants because the plaintiff made no factual
allegations establishing that said defendants were
acting other than in an official capacity when
engaging in the conduct of which the plaintiff
complained). The allegedly unlawful actions with
which Pennington is charged by Butler were
inextricably tied to Pennington’s official duties. The
objection is without merit and is overruled.

35a
Defendants object to the Magistrate Judge’s
conclusions that the County failed to provide Butler
with adequate individualized notice for Butler to
understand his FMLA leave, and that there is
evidence Butler did not utilize his FMLA leave as he
otherwise would have used it. (ECF No. 154 at 17.)
Defendants argue that Butler received all required
notice regarding his rights and responsibilities under
the FMLA when he personally initialed, and had his
physician review, prepare, and sign a FMLA leave
certification form, which includes a page entitled,
“Your Rights and Responsibilities under the Family
Medical Leave Act as a Charleston County
Government Employee.” (See id. at 17–18; ECF No.
111-8.) Moreover, Defendants assert that the
Magistrate Judge failed to recognize, or otherwise
address, that Butler provided no evidence or
specificity about how he would have used his FMLA
differently. (ECF No. 154 at 18.)
The Court disagrees, and finds that
Defendants’ objection is insufficient to displace the
sound reasoning and analysis of the Magistrate
Judge. The Magistrate Judge found that the evidence,
when considered in the light most favorable to
Plaintiff, is that Plaintiff was told by an office
manager that Charleston County had approved his
FMLA leave and that he would be receiving a letter
from the County confirming this, but that he never
received any such letter confirming his leave,
designating it as FMLA leave, or otherwise explaining
its operation. (See ECF Nos. 151 at 39.) The Report
further notes that the County began counting
Plaintiff’s sick leave hours as FMLA hours without
providing the promised confirmation, “and Plaintiff
asserts that by the time he was told orally by the office

36a
manager on June 5, 2014 that his FMLA leave had
been approved, Plaintiff had already been charged
with approximately 252 hours (4 and 1/2 weeks) of
FMLA leave.” (Id.) In his verified amended complaint
and at his deposition, Plaintiff stated that the
County’s failure to adequately inform him of the
consequences of exhausting his FMLA leave before
the County began charging him with FMLA hours
resulted in him not taking necessary measures from
the beginning to preserve his leave for the long
treatment road ahead. (ECF Nos. 20 ¶¶ 103–06; 11114 at 55.) The Magistrate Judge concluded, “This
assertion is sufficient to state an FMLA interference
claim for purposes of summary judgment.” (ECF No.
151 at 40 (citing Vannoy v. Fed. Reserve Bank of
Richmond, 827 F.3d 296, 302–03 (4th Cir. 2016)
(reversing district court’s grant of summary judgment
to employer and recognizing an allegation that FMLA
leave would have been structured differently as
sufficient prejudice, resulting from an FMLA notice
violation, to support an FMLA interference claim)).)
“There are two types of individualized notice that the
employer must give an employee who may be entitled
to FMLA leave: a ‘rights and responsibilities notice,’
[29 C.F.R.] § 825.300(c); and a ‘designation notice,’ id.
§ 825.300(d).” Vannoy, 827 F.3d at 301. The
requirements for FMLA designation notice are laid
out in the Code of Federal Regulations:
The employer is responsible in all
circumstances for designating leave as
FMLA–qualifying, and for giving notice
of the designation to the employee as
provided in this section. When the
employer has enough information to
determine whether the leave is being

37a
taken for a FMLA–qualifying reason
(e.g., after receiving a certification), the
employer must notify the employee
whether the leave will be designated and
will be counted as FMLA leave within
five business days absent extenuating
circumstances.
29 C.F.R. § 825.300(d)(1). Plaintiff’s FMLA
allegations amount to a claim that Charleston County
failed to timely provide him with designation notice,
and he has provided sufficient evidence of such failure
in the form of his verified amended complaint and
deposition testimony to survive summary judgment.
Furthermore, the Court finds that Plaintiff has
provided sufficient evidence that he would have
structured his FMLA leave differently—for instance
by using some of his accumulated sick leave and
annual leave, or by working from home—to satisfy the
prejudice prong of an interference claim premised on
a FMLA notice violation. (See ECF Nos. 20 ¶¶ 103–
06; 111-14 at 55.) Accordingly, Defendants objections
are overruled and the motion for summary judgment
as to the FMLA claim is denied.
E. Plaintiff’s Defamation Claim
After explaining the various factual bases for
Plaintiff’s defamation claims against Defendant
Pennington and considering Pennington’s arguments
for why Plaintiff’s defamation claim should be
dismissed, the Magistrate Judge concluded that
Pennington is not entitled to dismissal of the
defamation claim against him in his individual
capacity because Plaintiff has clearly asserted that
Pennington’s allegedly defamatory conduct was

38a
accompanied by actual malice, and a sufficient
question to be decided by the finder of fact has been
presented. (See ECF No. 151 at 40–43.) The
Magistrate Judge further found that, when
considered in the light most favorable to the Plaintiff,
a genuine issue of material fact remains as to whether
Pennington would be entitled to the affirmative
defense of conditional or qualified privilege because
the comments he made or published about Plaintiff
were done in the course and scope of his position as
the Ninth Circuit Public Defender. (See id. at 43–44.)
The Report explains that, when considered under the
summary judgment standard, the evidence presents
jury questions as to whether the comments made by
Pennington were made with malice, and as to
whether Pennington exceeded any privilege he may
have otherwise had in making the statements
concerning Plaintiff. (Id.) Finally, the Magistrate
Judge concluded that Pennington is not entitled to
summary judgment on Plaintiff’s defamation claim on
account of Plaintiff being a public figure because
Plaintiff has adequately alleged that the comments
and publications by Pennington were made with
actual malice, and this remains a question of fact for
the jury. (Id. at 44.)
Defendant Pennington makes lengthy written
argument objecting to the Magistrate Judge’s
reasoning and conclusions regarding Plaintiff’s
defamation claim. (See ECF No. 154 at 19–29.)
Essentially, Pennington claims that the Magistrate
Judge erred by failing to consider the details of four
discrete actions by Pennington that Plaintiff contends
amount to defamation, and that when the details are
properly considered with respect to each action
individually, each defamation theory fails either by

39a
lack of sufficient factual basis or by application of the
affirmative defenses of absolute privilege and/or
conditional/qualified privilege. (See id.) These
arguments
present
as
potentially
effective
summation at trial, but not as valid reasons to grant
summary judgment on the defamation claim. After de
novo review, the Court finds no error in the
Magistrate Judge’s analysis, and agrees that jury
questions remain regarding all pertinent aspects of
the defamation claim and possible defenses.
Accordingly, Defendant Pennington’s objections are
overruled, and the motion for summary judgment as
to Plaintiff’s Fourth Cause of Action is denied.
F. Breach of Implied Contract Claim
The Magistrate Judge considered Plaintiff’s
novel theory that Defendant Pennington, in his
official capacity, and/or Charleston County breached
an implied contract of Plaintiff’s employment that
consisted of a fundamental understanding that the
employer attorney and employee attorney would both
conduct their respective legal practices in accordance
with ethical standards of the profession, and
determined that there is no basis for such a claim
under South Carolina law. (ECF No. 151 at 45–50.)
Plaintiff raises what appears to be an objection to this
determination (see ECF No. 155 at 15); however, the
objection is conclusory and does not point to any
specific error in the reasoning or conclusions of the
Magistrate Judge. Accordingly, the objection is
overruled, the motion for summary judgment is
granted as to Plaintiff’s Fifth Cause of Action, and the
breach of implied contract claim is dismissed.

40a
G. After-Acquired Evidence
Defendants argue that the Magistrate Judge’s
failure to address the matter of after-acquired
evidence with respect to the First Amendment
retaliation claim constitutes error. (ECF No. 154 at
30.) Defendants contend that based upon information
gained in discovery about Butler’s negative
statements and actions regarding Pennington,
Pennington would have terminated Butler’s
employment as early as February 22, 2014,
irrespective of Butler and Pennington’s ongoing
conflict about reporting alleged ethical misconduct by
the Solicitor’s Office, and Pennington’s decision to do
so would have been appropriate and justified. (Id. at
30–31.) Defendants assert that their affirmative
defense of after-acquired evidence was ripe for
disposition at the summary judgment stage and the
Magistrate Judge’s failure to dispose of the issue was
error. (Id. at 31–32.) The Court finds that remaining
questions of fact with regard to the First Amendment
retaliation claim and how Defendant Pennington may
or may not have reacted to the discovery of Butler’s
negative statements and actions about Pennington
render Defendants’ after-acquired evidence defense,
and any associated limitation on liability, more
appropriate for disposition at trial. The Magistrate
Judge did not err by omitting discussion of this
affirmative defense in the Report. Accordingly, the
objection is overruled.
H. Failure to Mitigate Damages
Finally, Defendants argue that the lack of any
discussion of their failure to mitigate damages
defense in the Magistrate Judge’s Report constitutes

41a
error. (ECF No. 154 at 32–34.) Defendants assert that
Butler’s claim for lost wages is barred because he
made no effort to search or apply for new employment
after being terminated by Pennington. (Id. at 32.)
Again, the Court finds that the substance of this
affirmative defense is more appropriate for
disposition at trial. There is a genuine dispute as to
whether Plaintiff’s limited efforts to seek alternative
employment during the relevant time period was
reasonable in light of the severity of his medical
condition. (See, e.g., Butler Dep. 26:8–31:10, ECF No.
111-14 (describing limitations on Butler’s ability to
work due to cancer treatment and related surgeries,
as well as Butler’s intermittent efforts to work as a
solo practitioner).) The Magistrate Judge committed
no error by omitting discussion of the failure to
mitigate damages defense in the Report, and the
objection is overruled.
CONCLUSION
After careful consideration of the relevant
materials and law, and for the reasons set forth above,
the Court adopts the Report (ECF No. 151) of the
Magistrate Judge and incorporates it herein, as
modified, and to the degree not inconsistent with this
ruling. Accordingly, Defendant Pennington’s motion
for summary judgment on his counterclaim (ECF No.
110) is DENIED, and Defendants’ motion for
summary judgment on Plaintiff’s claims (ECF No.
111) is GRANTED in part and DENIED in part.
Specifically, Defendant Pennington, in his
official capacity, is dismissed from the First Cause of
action insofar as it seeks damages, but not insofar as
it seeks injunctive relief. Defendant Charleston

42a
County is dismissed as a party defendant to the First
Cause of Action. The motion for summary judgment
regarding the First Amendment claim against
Pennington in his individual capacity is denied.
Defendants’ motion for summary judgment is granted
to the extent that the Second Cause of Action purports
to state a claim for failure to accommodate pursuant
to the ADA, and the ADA claim is dismissed with
prejudice because both Defendant Pennington, in his
official capacity, and Charleston County are entitled
to dismissal as party defendants to the claim.
Defendant Pennington, in both his official and
individual capacities, is dismissed as a party
defendant to the Third Cause of Action under the
FMLA, but the FMLA claim persists against
Charleston County. The motion for summary
judgment with respect to Plaintiff’s defamation claim
is denied. The motion for summary judgment as to
Plaintiff’s Fifth Cause of Action for breach of implied
contract is granted, and that claim is dismissed with
prejudice. Plaintiff has withdrawn his Sixth and
Seventh Causes of Action, and those claims are
accordingly dismissed without prejudice.
IT IS SO ORDERED.
/s/ Bruce Howe Hendricks
United States District Judge
April 16, 2019
Greenville, South Carolina

43a
[ENTERED: November 15, 2018]
IN THE UNITED STATES DISTRICT COURT
DISTRICT OF SOUTH CAROLINA
CHARLESTON DIVISION
Beattie I. Butler,

) C/A 2:15-4455-BHH-BM
)
Plaintiff,
)
)
v.
) REPORT AND
) RECOMMENDATION
)
D. Ashley Pennington, )
in his individual and )
official capacities and )
Charleston County
)
)
Defendants.
)
)

This action has been filed by the Plaintiff, a
former employee of the Ninth Circuit Public
Defender’s Office, asserting various federal and state
claims against the named Defendants. The
Defendants Charleston County and Pennington (in
his official capacity) filed an answer to Plaintiff’s
Amended Complaint on April 14, 2016. The
Defendant Pennington (in his individual capacity)
also filed an Answer together with a counterclaim on
that same date, and thereafter filed an Amended
Answer and Counterclaim on July 8, 2016, and a
Second Amended Answer and counterclaim on
September 27, 2016. Plaintiff filed an Amended
Reply to Defendant’s Second Amended Answer and

44a
Counterclaim on December 29, 2016, and Defendant
filed an Amended Answer (but did not amend or
include his counterclaim) on January 8, 2018.
The Defendants filed a motion for summary
judgment pursuant to Rule 56, Fed.R.Civ.P., on April
13, 2018, seeking dismissal of all of Plaintiff’s claims
against the Defendants. The Defendant Pennington
(in his individual capacity) also filed a motion for
summary judgment as to his counterclaim that same
date. 1 Plaintiff filed memoranda in opposition to the
Defendants’ motions on May 29, 2018, following
which the Defendants filed reply memoranda on July
2, 2018. Plaintiff filed an amended response to
Pennington’s motion for summary judgment on July
17, 2018. See also, Text Order (Court Docket No. 125).
A hearing was held on the pending motions on August
15, 2018, at which all parties were represented by
able counsel. The motions were thereafter taken
under advisement pending scheduled mediation.
The Court has now been advised that
mediation was unsuccessful, and the pending
motions are therefore now before the Court for
disposition. 2
1 Defendant Pennington’s Second Amended Answer and
Counterclaim initially included, inter alia, a counterclaim for
defamation based on Plaintiff publically claiming Pennington
terminated him because he has cancer. By Order filed
December 27, 2016, that counterclaim was dismissed. See
Order (Court Docket No. 50); see also Court Docket No. 47
[Report and Recommendation]. Defendant Pennington’s motion
for summary judgment is on his remaining counterclaim.

This case was automatically referred to the
undersigned United States Magistrate Judge for all pretrial
proceedings pursuant to the provisions of 28 U.S.C.
2

45a
Allegations of the Parties
Plaintiff’s allegations from his Amended
Complaint were previously set forth by the Court in
its Order of September 12, 2016, and in the Report
and Recommendation filed November 28, 2016, and
are reprinted herein verbatim as follows:
Plaintiff was an Assistant Public Defender
(APD) for Charleston County. The Defendant
Pennington is the Public Defender for the Ninth
Circuit, which includes Charleston County, and was
Plaintiff’s boss. Plaintiff alleges that at the time of
his termination by Pennington (the “Defendant”), he
was “the most experienced litigator in the Office and
was the lawyer most often sought out by other APDs
to be second chair or otherwise to aid in the
defense of clients charged with serious felonies.
Amended Complaint, at ¶ 9 3 ; see also Dunaway
Deposition, pp. 8-9; Penn Affidavit, # 5-7. Plaintiff
alleges that beginning in late 2007 he became aware
of what he considered to be serious misconduct being
perpetrated against clients of the Public Defender’s
§ 636(b)(1)(A) and (B) and Local Rule 73.02(B)(2)(g), D.S.C. The
Defendants have filed motions for summary judgment. As these
motions are dispositive, this Report and Recommendation is
entered for review by the Court.
3 Plaintiff’s pleading is a verified Amended Complaint.
In this Circuit, verified complaints are to be considered as
affidavits and may, standing alone, defeat a motion for
summary judgment when the allegations contained therein are
based on personal knowledge. Williams v. Griffin, 952 F.2d 820,
823 (4th Cir. 1991). Therefore, the undersigned has considered
the factual allegations set forth in the verified Complaint in
issuing a recommendation in this case.

46a
Office by attorneys from the Ninth Circuit Solicitor’s
Office. Plaintiff alleges, however, that the Defendant
prevented him from reporting this misconduct to the
Office of Disciplinary Counsel (ODC). Id., ¶ 10;
Plaintiff’s Deposition, pp. 4, 65-69, 121; Dunaway
Deposition, pp. 43-44. Plaintiff then proceeds to set
out some of these alleged instances of misconduct,
and the Defendant’s alleged refusal to allow him to
report what he considered to be misconduct. Id., ¶¶
11-23. See Plaintiff’s Deposition, pp. 125, 199.
Plaintiff alleges that in December 2013 he
contributed to a discussion regarding continuing
misconduct by the Ninth Circuit Solicitor’s Office on
the South Carolina Association of Criminal Defense
Lawyers (“SCACDL”) Electronic List Serv. 4 Plaintiff
alleges that he “detailed his experience with the
history of ethical lapses in that office and indicated
that something should have been done about it a long
time ago”. Id., at ¶ 24; see also Plaintiff’s Deposition,
pp. 5-6, 127. Plaintiff alleges that in response to this
posting, the Defendant instructed him via email that
he was not to speak or convey in any manner to others
comments that were critical of the Solicitor (Scarlett
Wilson) or her office, especially regarding their
ethics or honesty, without first obtaining the
Defendant’s permission. 5 Id., at ¶ 25. See also
4 Plaintiff alleges that the SCACDL List Serv facilitates
active conversation among criminal defense lawyers regarding
issues of criminal law in South Carolina. Plaintiff further
alleges that participants on the List Serv generally believe that
matters discussed on that forum are not to be shared outside
the organization, especially not with prosecutors. Id., at ¶ 14.

Rhett Dunaway, Deputy Public Defender for
Charleston County, testified that after the Defendant became
5

47a
Plaintiff’s Deposition, pp. 127-128. Even so, Plaintiff
alleges that the SCACDL Board of Directors
subsequently voted in January 2014 to file a
grievance and send a letter to the South Carolina
Attorney General requesting an investigation of the
Ninth Circuit Solicitor’s Office, and that he both
discussed this matter with two members of the
SCACDL Board and assisted in drafting the
language of the grievance and letter. Id., at ¶ 27; see
also Dunaway Deposition, pp. 40-41; Plaintiff’s
Affidavit, # 70.
Plaintiff alleges that during the SCACDL’s
February 2014 board meeting, the Defendant argued
to the Board that Plaintiff was manipulating the
SCACDL for his own personal agenda and was doing
so at the expense of his own clients, and that Wilson
would punish the public defender clients and the
Public Defender’s Office in retaliation for such
complaints. Id., at ¶ 28; Plaintiff’s Deposition, pp.
149-152, 208-209. However, Plaintiff alleges that the
SCACDL Board voted to go forward with the
grievance and letter despite the Defendant’s
arguments, following which Plaintiff received an
email from the Defendant directing him to turn over
all materials he had provided to the SCACDL Board,
since Defendant had ordered Plaintiff not to criticize
the Ninth Circuit Solicitor’s Office. Id., at ¶ ¶ 2930; see also Court Docket No. 111-13, p. 13.
Plaintiff alleges that he thereafter began to question
whether he had acted contrary to his own ethical
upset with Plaintiff for discussing an ethical complaint against
Wilson, the policy of the public defender’s officer became if a
grievance is contemplated that it has to go through the
Defendant. See Dunaway Deposition, pp. 5, 36-37.

48a
duties by previously adhering to the Defendant’s
directives not to report what he believed to be ethical
breaches to the appropriate authority, and that on
advice of his own counsel he then drafted a letter to
the ODC to “self-report” and explain his previous
failure to do so. Id., at ¶ 31; Plaintiff’s Affidavit,
# 21.
Plaintiff alleges that on February 27, 2014,
the Defendant sent out an office wide email in the
Charleston County Public Defender’s Office stating
that any perceived ethical breach encountered by an
APD should first be reported to him so that he
could properly investigate the matter and determine
how to respond. Id., at ¶ ¶ 33-34; see also Plaintiff’s
Exhibit 48. Defendant further stated that the
SCACDL List Serv was not to be used for discussing
ethical breaches or his handling thereof. Id., at ¶ ¶
33-34; see also Plaintiff’s Deposition, pp. 126-127.
Plaintiff alleges that thereafter an attorney
representing him sent a letter to the Defendant on
March 3, 2014, taking issue with his directive and
informing him of Plaintiff’s intent to self-report to
the ODC his previous failures to report the Solicitor’s
office’s ethical breaches. Plaintiff alleges he
thereafter met with the ODC’s staff to satisfy his
reporting obligation. Id., at ¶ ¶ 33-34.
Plaintiff alleges that on April 7, 2014 he was
diagnosed with cancer and immediately began
undergoing an intensive treatment regimen which
included chemotherapy and radiation. Plaintiff
alleges that although he requested FMLA leave due to
his treatment and condition, he never received any
official notification from Charleston County’s Human

49a
Resource Office or any other County office relating
to this request.
Id., at ¶ ¶ 35-36; Plaintiff’s
Deposition, pp. 6-7, 49, 52, 90, 207. Plaintiff alleges
that then, on September 23, 2014, he received an
email from the Defendant containing detailed
questions and requests for information related to
past ethical breaches by the Solicitor’s Office and the
Defendant’s orders that Plaintiff not file grievances
about those breaches, with a response due the
following day. Plaintiff alleges that at that time he
was suffering the effects of his cancer treatments, and
requested additional time to respond, but that the
Defendant specifically denied his request, and only
agreed to give him “slightly more time” because of an
accidental death of an APD the previous night. Id.,
at ¶ ¶ 37-38; see also Court Docket No. 111-6, p. 2
[Plaintiff’s Deposition Exhibit 9]; Plaintiff’s
Deposition, pp. 202-203. Plaintiff alleges that he
then met with the Defendant on September 29, 2014,
at which time the Defendant requested further
written documentation of his condition and
prognosis, and that thereafter the Defendant
“abruptly terminated” Plaintiff’s employment on
October 14, 2014. Id., at ¶ ¶ 39-40; see also Court
Docket Nos. 111-7, 111-15, pp. 40-43.
In his verified Amended Complaint, Plaintiff
alleges the following claims against the Defendants:
First Amendment retaliation, prior restraint, and
protected speech under 42 U.S.C. § 1983 (First Cause
of Action); Employment Discrimination in violation of
the ADA (Second Cause of Action); Family and
Medical Leave Act - interference with statutory
rights (Third Cause of Action); Defamation - libel
and slander per se (Fourth Cause of Action); Breach of

50a
Implied Contract (Fifth Cause of Action); denial of
due process under § 1983 (Sixth Cause of Action); and
Breach of Contract - Intended Third-party
beneficiary (Seventh Cause of Action).
See
generally, Plaintiff’s Verified Amended Complaint.
As part of his Second Amended Answer to
Plaintiff’s Amended Complaint, the Defendant
asserts a Counterclaim against the Plaintiff for
defamation and slander per se. In this Counterclaim,
Defendant alleges that after he told Plaintiff that he
[Plaintiff] was not authorized to speak to the press on
behalf of, or as a representative of, the Ninth Circuit
Public Defender’s Office without seeking clearance
first from the Defendant, that Plaintiff nonetheless
“responded to press inquiries from the Post and
Courier regarding problems or wrongdoing by the
Ninth Circuit Solicitor’s Office”.
See Second
Amended Answer and Counterclaim, ¶ 1; see also
Plaintiff’s Deposition, pp. 4-5. Defendant alleges that
Plaintiff’s constant criticism of the Solicitor’s Office
reflected badly on the Defender’s Office and fostered
division within that office, but that when he tried to
counsel Plaintiff regarding his counterproductive
behavior, Plaintiff was resistant, later becoming
hostile. Id., ¶ ¶ 2-3. Defendant alleges that Plaintiff’s
conduct created an inference “that [Defendant] was
unethical for not reporting the Solicitor and/or her
staff members to the South Carolina Office of
Disciplinary Counsel and incompetent in leading the
Public Defender’s Office”. Id., ¶ 4. Defendant alleges
that this was similar to conduct Plaintiff had
engaged in toward the Defendant’s predecessor as
well as the previous Solicitor, that he was also aware
that the current Solicitor had previously filed a

51a
grievance against the Plaintiff, and that he came to
recognize that Plaintiff held continuing personal
animosity against the Solicitor for having filed that
grievance against the Plaintiff several years earlier.
Id., ¶ ¶ 5-7.
Defendant alleges that when he refused to
publically criticize the Solicitor as the Plaintiff
wanted him to do, Plaintiff told numerous other
attorneys, both inside and outside of the Public
Defender’s Office, the falsehood that he had ordered
Plaintiff not to file a grievance against the Solicitor,
thereby inferring that the Defendant was covering for
or protecting the Solicitor at the expense of the best
interests of the Public Defender’s clients and the
community. Defendant identifies nine individuals
to whom Plaintiff made this allegedly false
statement. Id., ¶ ¶ 8-9. Defendant further alleges
that Plaintiff’s statement that he had ordered
Plaintiff not to file a grievance was false and
defamatory, as it charged the Defendant with
actions that inferred he was disloyal to his own
office, that he was unethical by failing to zealously
represent Public Defender Office clients, and that he
was unfit for his profession. Id., ¶ 10.
Defendant also alleges that Plaintiff or his
agents contacted South Carolina Lawyer’s Weekly
Reporter Phillip Bantz on or around April 2014 and
repeated this false statement, and that South
Carolina Lawyer’s Weekly then ran an article
repeating the false statement that Defendant had
directly ordered Plaintiff not to file a grievance
against the Solicitor. Defendant alleges he first
learned of Plaintiff’s false statement when reporter

52a
Bantz called his office seeking comment, and that this
false statement was published statewide by the news
weeklyto South Carolina Bar Members and the
broader community both on its website and in its
newspaper. Id., ¶ ¶ 11-13; see also Pennington’s
Deposition, pp. 22-24.
Defendant alleges that Plaintiff’s statement
that he had ordered Plaintiff not to file a grievance
against the Solicitor and the repetition of this
statement was both false and published by the
Plaintiff with the intent of showing Defendant was
unethical and unfit for his profession. Id., ¶¶ 14-15;
Plaintiff’s Deposition, pp. 150-151. Defendant alleges
that Plaintiff knew or should have known that the
rules governing the practice of law in South Carolina
are self policing, and that if Plaintiff wanted to file a
grievance against another lawyer it was his personal
responsibility to do so, not any other lawyer’s
responsibility, and that the Defendant had
consistently reminded Plaintiff and all of the other
public defender lawyers of their ethical right to file
grievances whenever ethics issues arose. Id., ¶ ¶ 1617. Defendant further alleges that he asked the
Plaintiff in 2014 to provide the date, time and
location of any alleged order from the Defendant for
Plaintiff not to file a grievance, but that Plaintiff was
unable to provide this information. Id., ¶ 18.
Defendant alleges that he eventually
terminated Plaintiff’s employment due to Plaintiff’s
false accusations that the Defendant had ordered
him not to file grievances, his insubordinate and
divisive statements and conduct as a senior staff
member directed to subordinate staff and to third

53a
parties outside of the office, and because of Plaintiff’s
inability to control his animosity towards others
lawyers and to act constructively for the welfare of
his clients in coordination with his employer, the
Ninth Circuit Public Defender. Defendant further
alleges that although Plaintiff complained publically
and in the press that he was terminated by the
Defendant because he had cancer, Plaintiff states in
his Amended Complaint that he was terminated
because he complained about the Ninth Circuit
Solicitor’s Office. Id., ¶ ¶ 19-20. See generally,
Defendant’s
Second
Amended
Answer
and
Counterclaim.
Discussion
Summary judgment shall be rendered
forthwith if the pleadings, depositions, answers to
interrogatories, and admissions on file, together with
the affidavits, if any, show that there is no genuine
issue as to any material fact and that the moving
party is entitled to judgment as a matter of law.
Rule 56, Fed.R.Civ.P. The moving party has the
burden of proving that judgment on the pleadings is
appropriate. Temkin v. Frederick County Comm’rs,
945 F.2d 716, 718 (4th Cir. 1991). Once the moving
party makes this showing, however, the opposing
party must respond to the motion with specific facts
showing there is a genuine issue for trial. Baber v.
Hosp. Corp. of Am., 977 F.2d 872, 874-75 (4th Cir.
1992).

54a
Pennington’s Counterclaim
Pennington seeks summary judgment on his
counterclaim against the Plaintiff for defamation
and slander per se. Defendant alleges that Plaintiff
published himself or through his agents verbal and
written false and defamatory statements about the
Defendant to the press, members of the Defendant’s
staff, local attorneys, members of the South Carolina
Criminal Defense Lawyers Association, and the
public; that these false statements exceeded any
intra-corporate privilege that may have existed; that
they were false and Plaintiff knew they were false
and/or had reckless disregard for their falsity; that
these false statements inferred that the Defendant
was unethical, was not loyal to his clients, did not
care if the Solicitor’s Office acted in a manner that
might harm clients, and that he was hiding or
covering for the Solicitor’s actions; that these
statements inferred wrongdoing and that the
Defendant was unfit for his profession and
constituted slander per se; that Plaintiff’s false
statements were made and his actions were taken
with actual malice and exceeded any qualified
privilege that may have existed; and that the
publication and republication of these false
statements by the Plaintiff has caused the Defendant
to suffer general damages, and damages to his
personal and professional reputation. Defendant’s
Second Amended Answer and Counterclaim, at ¶ ¶
23-30.
Defamatory communications can take two
forms: libel and slander. Slander is a spoken
defamation, while libel is a written defamation or one

55a
accomplished by actions or conduct. Swinton Creek
Nursery v. Edisto Farm Credit, 514 S.E.2d 126 (S.C.
1999). 6 In South Carolina, the elements for a
defamation claim are: 1) a false and defamatory
statement concerning another; 2) an unprivileged
publication to a third party; 3) fault on the part of
the publisher; and 4) either actionability of the
statement irrespective of special harm or the
existence of special harm caused by the publication.
Murray v. Holnam, Inc., 542 S.E.2d 743, 748
(S.C.Ct.App. 2001). Further, a statement may be
actionable per se where it is both false and
defamatory and suggests 1) the commission of a
crime of moral turpitude, 2) contraction of a
loathsome disease, 3) adultery, 4) unchastity, or 5)
unfitness in one’s business or profession.
Holtzscheither v. Thomson Newspapers, Inc., 506
S.E.2d 497, 508-509 (S.C. 1998). Finally, as the
Defendant is a public figure, he must prove that any
alleged defamation of him was done by the Plaintiff
with actual malice. See New York Times Co. v.
Sullivan, 376 U.S. 254, 270 (1964); cf. Parrish v.
Gannett River States pub. Corp., No. 93-238, 1994
WL 159533 at * 3 (S.D.Miss. Feb. 9, 1994)
[Discussing public defenders as public figures]; see
also S.C.Code 17-3-510 (2007).
After careful review and consideration of the
evidence presented on this issue in conjunction with
the applicable case law, the undersigned does not find
that the Defendant is entitled to summary judgment
on his counterclaim. First, the Defendant has
6 Defendant’s allegations encompass both forms of
defamatory communications.

56a
submitted several emails and documents from the
Plaintiff wherein Plaintiff criticizes the Defendant
and calls him bad names. See Defendant’s
Deposition Exhibits 3, 5-6, 10. Plaintiff also made
disparaging comments about the Defendant (such as
that the Defendant was “stupid”, an “a**hole”, a
“piece of sh**”, etc.) to other individuals, including
employees of the public defender’s office. See
generally Lewis Deposition, pp. 27, 35-39, 42, 6465; Penn Deposition, pp. 46-50; Cochran
Deposition, p. 75; Schwartz Deposition, pp. 19-20;
Blazer Deposition, pp. 45-51, 115, 124; Grose
Deposition, pp. 37-39; Plaintiff’s Deposition, pp. 110112; Dunaway Deposition, p. 64; Court Docket No.
111-15, p. 5. However, while there is no wholesale
defamation exception for anything that might be
labeled “opinion”, general expressions of opinion
(such as that someone is “stupid” or an “idiot”) are
not in general by themselves sufficient to support a
defamation claim, although they may be under
certain limited circumstances. Todd v. South State
Bank, No. 15-708, 2015 WL 6408121, at * 3(D.S.C.
Oct.
22,
2015);
cf.
Nigro
v.
Virginia
Commonwealth University/Medical College of
Virginia, No. 10-2425, 2012 WL 2354635 at * 7 (4th
Cir. June 21, 2012) [“Pure expressions of opinion, not
amounting to ‘fighting words’, cannot form the basis
of an action for defamation.”] (quote from Chaves v.
Johnson, 335 S.E.2d 97, 101 (V. 1985)); Milkovich v.
Lorain Journal Co., 491 U.S. 1, 18-20 (1990)
[Statements amounting to “imaginative expression”
or “rhetorical hyperbole” not actionable against
public figures as defamatory].

57a
Defendant does also cite to other comments
made by the Plaintiff about him which are arguably
more actionable, including that he was unable to
perform his job, that no one would want him
representing them, that his legal skills were lacking,
that he was incompetent and a poor administrator,
that he was unable to perform his job, that he was
unwilling as the public defender “to really fight with
the solicitor’s office”, and that he would not let
Plaintiff file grievances. These comments were made
to both employees of the public defender as well as
to other individuals outside the office. See generally,
Lewis Deposition, pp. 27, 35-39, 44, 46; Penn
Deposition, pp. 46-50; Blazer Deposition, pp. 46-51;
Grose Deposition, pp. 37-39. Indeed, Plaintiff himself
admitted to making disparaging comments about the
Defendant. See generally, Plaintiff’s Deposition, pp.
110-112, 127, 307-308. Defendant contends that
these statements made by the Plaintiff about him
were false and defamatory, were made to third
parties and were not privileged, and are actionable
per se in so far as they accuse the Defendant of
being unfit for his business or profession, 7 or
(possibly) of having committed a crime of moral
turpitude. 8 Defendant further argues that, with
7 Plaintiff argues in his response in opposition to the
Defendant’s motion, inter alia, that the Defendant is making a
new claim insofar as he alleges Plaintiff said he was “unfit for his
profession”. However, that is clearly a claim made by the
Defendant in his pleading. See Second Amended Answer and
Counterclaim, at ¶ ¶ 10, 14, 26, 30; Court Docket No. 41, pp.
24-25, 27.

A question has been presented of whether the Plaintiff
made comments to third parties that the Defendant did, or may
have, committed a crime. See Court Docket No. 127-1, pp. 301302. However, it is not clear that the Defendant is pursuing this
8

58a
respect to the affirmative defense of truth, there is
“no evidence in the record to support the truth of
Plaintiff’s statements about Defendant Pennington
being unfit for his profession”. See Holtzscheither,
506 S.E.2d at 508-509 [Statement may be actionable
per se where it is both false and defamatory and
suggests unfitness in one’s business or profession];
Johns v. Amtrust Under writers, Inc., 996 F.Supp.2d
413, 418-419 (D.S.C. 2014).
However, the Defendant is not entitled to
summary judgment on these claims. While Defendant
argues that Plaintiff has no third party witnesses
who will testify they ever heard Pennington order
Plaintiff not to file a grievance, 9 Plaintiff correctly
notes in his response that Plaintiff himself asserts
this to be the case as a verified claim. See also
Plaintiff’s Deposition, pp.65-69, 121; Dunaway
Deposition, pp. 43-44. As such, this dispute between
Plaintiff and the Defendant about what the
Defendant did or did not instruct the Plaintiff to do
is a question of fact for the jury. 10 See Anderson v.
issue as part of his defamation claim, as it is not part of his filed
counterclaim. The undersigned has therefore not discussed that
issue further as part of this opinion.
9 Plaintiff acknowledged that he does not have any
witnesses who have personal knowledge of Pennington ordering
him not to file a grievance against Scarlett Wilson regarding
her actions in the Moultrie case. See Plaintiff’s Deposition, p. 4.

As a member of the Bar, both Plaintiff and the
Defendant had a duty to report ethical violations of which they
were aware. Cf. Matter of Foster, 478 S.E.2d 840, 841 (S.C.
1996) [Supreme Court can suspend law license for violations of
rules of professional conduct]; Matter of Hawkins, 463 S.E.2d 92
(S.C. 1995) [Same]; see also In Re Sullivan, 679 S.E.2d 525
(S.C. 2009) [same].
10

59a
Liberty Lobby, Inc., 477 U.S. 242, 255 (1986)
[“Credibility determinations, the weighing of
evidence, and drawing of legitimate inferences from
the facts” are functions for the trier of fact]. Plaintiff
also argues that many of the comments cited to by
the Defendant are mere opinion and therefore do not
even constitute defamatory conduct, and the
undersigned agrees that whether the statements at
issue are subject to a defamatory meaning, or were
made with malice or truly damaged Defendant’s
reputation, are all matters for the finder of fact to
determine. Warner v. Rudnick, 313 S.E.2d 359, 360
(S.C. 1984) [Noting that where a non- defamatory
inference is possible, whether a statement is
defamatory is a question of fact for the jury]; Wardlaw
v. Peck, 318 S.E.2d 270, 274 (S.C.Ct.App. 1984)
[Defamation protects one’s reputation it offers no
protection from hurt feelings]; Flemming v. Rose,
567 S.E.2d 857, 860 (S.C. 2002) [Actual malice
means the publisher of the statement had knowledge
the statement was false or acted with reckless
disregard as to whether or not it was false].
In sum, the undersigned does not find that the
facts and evidence presented establish Defendant’s
defamation claim against the Plaintiff as a matter of
law. Therefore, the Defendant is not entitled to
summary judgment on his defamation counterclaim.
Muhammad v. Klotz, 36 F.Supp.2d 240, 243 (E.D.Pa.
1999)[“Thus, at the summary judgment stage the
only inquiry is the threshold one of determining
whether there is the need for a trial, that is,
‘whether the evidence presents a sufficient
disagreement to require submission to [the trier of

60a
fact] or whether it is so one sided that one party must
prevail as a matter of law.’”].
Plaintiff’s Section 1983 Claim
In his First Cause of Action, Plaintiff asserts a
claim for violation of his First Amendment rights
against all of the Defendants pursuant to 42 U.S.C.
§ 1983. 11 Plaintiff alleges that he sought to bring
public attention to the serious prosecutorial
misconduct of the Ninth Circuit Solicitor’s Office, but
that the Defendant Pennington restricted and
limited his ability to speak in violation of his First
Amendment rights. Plaintiff alleges that this
constituted an unlawful restraint on speech. Plaintiff
further alleges that he was retaliated against by
Pennington when he unlawfully terminated
Plaintiff’s employment in retaliation for Plaintiff
speaking out, as a citizen, on matters of public
concern. 12
42 U.S.C. § 1983 "'is not itself a source of substantive
rights,' but merely provides 'a method for vindicating federal
rights elsewhere conferred.'" Albright v. Oliver, 510 U.S. 266,
271 (1994) (quoting Baker v. McCollan, 443 U.S. 137, 144 n.3
(1979)). A civil action under § 1983 allows "a party who has
been deprived of a federal right under the color of state law to
seek relief." City of Monterey v. Del Monte Dunes at Monterey,
Ltd., 526 U.S. 687, 707 (1999).
11

12 Plaintiff initially also included a claim under § 1983
in his Sixth Cause of Action that the Defendants failed to
provide a “name clearing” hearing for him. However, Plaintiff’s
counsel advised the Court at the motions hearing that that
claim was no longer being pursued. See also Plaintiff’s Brief, p.
35. Plaintiff is also no longer pursuing his Seventh Cause of
Action for Breach of Contract- Intended Third Party beneficiary.
Id.

61a
Pennington in his official capacity. As a
public official, 13 the Defendant Pennington is subject
This determination (that Pennington is a public
official) is case specific based on the facts and allegations
presented herein, due to the hybrid nature of Pennington’s
employment. The current Public Defender system was
established by the Indigent Defense Act of 2007, and under this
Act, Circuit Public Defenders have been considered to be
employees of the State of South Carolina.
See
HTTPS://sccid.sc.gov/about-us/circuit-public-defenders
(last
visited October 30, 2018); see also Stephney v. Baker, No. 083290, 2009 WL 2168868, at n. 6 (July 17, 2009). However,
whether the Circuit Public Defender is considered a state
employee, or even a public official, is dependant on the specific
facts and the claims presented. For example, a public defender
does not act under color of state law for purposes of a § 1983
claim when performing a lawyer’s traditional function as
counsel to a defendant in a criminal proceeding. Polk County v.
Dodson, 102 S.Ct. 445, 453 (1981). However, Pennington’s
conduct as an attorney representing a defendant is not the
issue in this lawsuit. The South Carolina Attorney General has
also opined that employees of the defender corporation are
neither state or county employees for certain types of claims,
even though they may be considered to be public employees for
other “certain specific purposes” or claims. See S.C. Atty. Gen.
Opinion 2005 WL 1383353 (SCAG May 4, 2005). As for what
those other purposes or claims might be, the United States
Supreme Court concluded in Branti v. Finkel, 445 U.S. 507
(1980), that a public defender acts under color of state law when
making hiring and firing decisions, and further stated in Polk
County that the public defender could also be acting under
color of state law while performing certain administrative and
possibly investigative functions. Polk County, 102 S.Ct. at 453;
cf. Imbler v. Pachtman, 424 U.S. 409, 430-431, and n. 33 (1976).
Therefore, the fact that, as noted in the previously cited 2005
State Attorney General’s opinion, public defenders are
essentially employees of an eleemosynary corporation created
by state statute, does not in and of itself prevent public
defenders from being “public” employees. As another example,
private medical care companies that provide medical care to jail
and prison inmates through contracts with public bodies (such
13

62a
to suit for damages in his individual capacity for
claims asserted pursuant to § 1983. Will v. Michigan
Dept. of State Police, 491 U.S. 58, 71 (1989); Hafer v.
Melo, 112 S.Ct. 358, 365 (1991); Goodmon v.
Rockefeller, 947 F.2d 1186 (4th Cir. 1991); Inmates v.
Owens, 561 F.2d 560 (4th Cir. 1977). However, in his
official capacity, Pennington assumes the status of the
office itself. Bellamy v. Borders, 727 F.Supp. 247,
251 (D.S.C. 1989) [“It is well established that ‘a suit
against a state official in his or her official capacity
is not a suit against the official but rather is a suit
against the official’s office’”], citing Will v. Michigan
Dept. of State Police, 491 U.S. 58, 68-70 (1989).
Defendants assert in their motion for summary
as counties or the State) have been deemed to be “public” entities
for purposes of constitutional claims presented through § 1983
lawsuits, even though they are private companies. Cf. West v.
Atkins, 487 U.S. 42, 48 (1988)[Holding that private physicians
that contracted with the State to provide medical care to
prisoners were state actors because they were hired to fulfil an
obligation - medical care - which was traditionally filled by the
State]; Jones v. Correctional Care Solutions, No. 09-269, 2010
WL 2639788 at * 6 (D.S.C. June 7, 2010)[Declining to
recommend dismissing Correctional Care Solutions on the basis
that it did not act under color of state law], adopted by, 2010 WL
2926178 (D.S.C. July 23, 2010), aff’d, 397 Fed. Appx. 854 (4th
Cir. Oct. 6, 2010). Finally, it is noted that the parties herein do
not dispute that Defendant Pennington is a public official for
purposes of the claims asserted. As such, for purposes of the
claims presented in this lawsuit, the undersigned has
concluded that both Plaintiff and the Defendant Pennington
were public employees/officials. See also Parrish, 1994 WL
159533 at * 3 [Discussing public defenders as public figures].
However, this conclusion is specifically not a finding by the
undersigned that a Circuit Public Defender, or assistant public
defenders are, or should be deemed to be, public employees
generally, as any such determination necessarily has to be
made on a case by case basis.

63a
judgment that the office of the Ninth Circuit Public
Defender is a state office, and therefore enjoys
Eleventh Amendment immunity from any suit from
damages in this Court. See also S.C.Code Ann. 17-3510, et seq. But see S.C. Atty. Gen. Opinion 2005 WL
1383353 (S.C.A.G. May 4, 2005). Plaintiff does not
contest this argument in his reply brief, nor did he do
so at the hearing, and is therefore considered to have
abandoned this claim. See Coker v. International
Paper Co., No. 08-1865, 2010 WL 1072643, at * 2[“[A]
plaintiff can abandon claims by failing to address
them in response to a summary judgment motion.”];
Jones v. Danek Medical, Inc., No. 96-3323, 1999 WL
1133272 at * 3 (D.S.C. Oct. 12, 1999)[“The failure of a
party to address an issue raised in summary
judgment may be considered a waiver or
abandonment of the relevant cause of action.”].
Therefore, the Defendant Pennington (in his
official capacity) is entitled to dismissal as a party
Defendant in Plaintiff’s First Amendment claim.
Bellamy, 727 F.Supp. at 249 [“Neither a State nor
its officials acting in their official capacities are
‘persons’ for purposes of damages actions brought
under 1983”]; see also Harbour v. South Carolina Dept.
of Corrections, No. 12-3611, 2013 WL 394159, at * 2
(D.S.C. Jan. 16, 2013).
Defendant Charleston County. With
respect to the Defendant Charleston County, while
the First Amendment provides that Congress shall
make no law abridging the freedom of speech, the
rights guaranteed by the First Amendment also apply
to local governmental entities such as Charleston
County through their incorporation into the due
process clause of the Fourteenth Amendment. See,

64a
e.g., Gitlow v. People of New York, 268 U.S. 652, 666
(1925); Oliver v. United States, 466 U.S. 170, 186 n.3
(1984); Elfbrandt v. Russell, 384 U.S. 11, 18 (1966).
Even so, with respect to Plaintiff’s First Amendment
claims against Charleston County, this Defendant
may be liable under § 1983 only if “the action that is
alleged to be unconstitutional implements or
executes a policy, statement, ordinance, regulation,
or decision officially adopted and promulgated by
that body’s officers.” Monell v. Dep’t of Social Servs.,
436 U.S. 658, 690-691 (1978). There is no evidence of
any such unconstitutional policy of the County that
was implemented by Pennington so as to subject
Charleston County to liability on this claim. Plaintiff
has failed to point to any ordinance or policy of
Charleston County that Pennington would have been
following by engaging in the improper conduct
alleged, and the county may only be liable for
damages if the execution of a policy or custom of the
county itself is what resulted in the alleged injury.
Monell, 436 U.S. 694; see also Milligan v. City of
Newport News, 743 F.2d 227, 229 (4th Cir. 1984) [A
municipality may be liable under § 1983 for the
violation of a Plaintiff’s constitutional rights “only
where the constitutionally offensive actions of
employees are taken in furtherance of some
municipal ‘policy or custom’”]; Leatherman v.
Tarrant
County
Narcotics
Intelligence
&
Coordination, 507 U.S. 163, 166 (1993) [“[A]
municipality can be sued under § 1983, but it cannot
be held liable unless a municipal policy or custom
caused the constitutional injury”].
Moreover, as the Circuit Public Defender,
Pennington is considered to be an employee of the

65a
State of South Carolina, not Charleston County. 14
As such, the County is not responsible for actions
taken by Pennington as the Circuit Public Defender.
Cf. Allen v. Fidelityand Deposit Co., 515 F.Supp.
1185, 1189-1191 (D.S.C. 1981)[“To allow the
County to be held accountable for the actions of the
sheriff and his deputies over whom it has no control
as to the manner in which they perform their official
duties and whom it cannot hire, fire, discipline or
train relative to the performance of the duties of their
offices, would be to subject the County to unbridled
and unlimited liability over which it has no control
and over which it is prevented from exercising such
control”], affd, 694 F.2d 716 (4th Cir. 1982) [Table];
Riley v. County of Cook, 682 F.Supp. 2d 856, 860
(N.D.Il.
2010)[“Because
the
sheriff
is
an
independently-elected official, he answers directly to
the electorate and does not have a master/servant
relationship with the county [ ]. Since the County
cannot control the actions taken by [the Sheriff’s]
Office, it cannot be charged with vicarious liability”]
(internal citations omitted); 15 see also Plaintiff’s
Exhibit 89 [Intergovernmental Agreement], ¶ 5
(Noting that assistant public defenders serve at the
pleasure of the Circuit Public Defender and have
14 As previously noted, the Circuit Public Defender
system replaced a system of non-profit defender corporations
with the passage of the South Carolina Indigent Act of 2007.
See Stephney v. Baker, 2009 WL 2168868, at n. 6. Under this
Act, Defendant Pennington is the Ninth Circuit Public
Defender, an office which encompasses both Charleston and
Berkeley counties. See also, n. 13, supra.

Although both of these cases discuss county liability
for actions of the Sheriff, the analysis is the same with respect
to county liability for actions of a Circuit Public Defender.
15

66a
responsibilities as the Circuit Public Defender
directs). Therefore, the Defendant Charleston County
is also entitled to dismissal as a party Defendant
under Plaintiff’s First Amendment Cause of Action.
Pennington in his individual capacity.
With respect to Plaintiff’s claim against Pennington
in his individual capacity, Defendant argues that
Plaintiff’s claim is subject to summary judgment
because the evidence does not present a genuine issue
of fact that Plaintiff’s “speech” was “citizen speech
[related to] matters of concern to the public”, that
the Defendant “restrained” Plaintiff’s speech in any
unlawful manner, or that Plaintiff’s right to engage
in the allegedly protected speech was not
outweighed by the Defendant’s interest in managing
and operating his office. Cf. Bearss v. Wilton, No. 08248, 2010 WL 11523749, at * 5 (D.Ver. Aug. 10, 2010)
[Noting that where a public employee is involved, in
determining whether the constitutional protection of
speech applies the Court must first determine
whether the employee is there to speak as a citizen on
a matter of public concern, and that if the answer is
no, then no First Amendment claim arises], citing to
Garcetti v. Ceballos, 547 U.S. 410, 418 (2006) and
Caraccilo v. Village of Seneca Falls, NY, 582 F.Supp.
2d 390, 405 (W.D.N.Y 2008); Picott v. Chatmon, No.
12-7202, 2017 WL 4159900 at * 5 (S.D.N.Y. Sept. 18,
2017)[“The Supreme Court has ruled that a public
employee acting pursuant to his official duties does
not speak as a citizen for First Amendment
purposes.”]; DeRitis v. McGarrigle, 861 F.3d 444, 452
(3rd Cir. 2017) [“Public employees’ First Amendment
rights
are
limited
by
the
Government’s
countervailing interest in efficient provision of public

67a
services”]; see also Connick v. Meyers, 461 U.S. 138,
147 (1983) [Noting that a federal court is not the
appropriate forum in which to review the wisdom of
personnel decisions of a public agency]. However,
considered in the light most favorable to the Plaintiff,
the evidence reflects that the speech Plaintiff wanted
to engage in was not with respect to matters personal
to him, but involved (according to the Plaintiff)
attempts to bring public attention to what he
believed to be serious prosecutorial misconduct by
the public office of the Ninth Circuit Solicitor, and
that the Defendant attempted to prevent him from
engaging in that speech. See Plaintiff’s Deposition,
pp. 65-69, 121; Plaintiff’s Affidavit, ¶¶ 10-12. 16
Bearss, 2010 WL 11523749, at * 5 [“The heart of the
matter is whether the employee speech was
‘calculated to redress personal grievances or whether
it had a broader public purpose’”], quoting Ruotolo v.
City of New York, 514 F.3 184, 189 (2nd Cir. 2008);
Stroman v. Colleton County School District, 981
F.2d 152, 156 (4th Cir. 1992) [“Speech involves a
matter of public concern when it involves an issue of
social, political, or other interests to a community”],
quoting Kirby v. City of Elizabeth City, 388 F.3d
440, 446 (4th Cir. 2004). 17
16 Although, for purposes of whether the Defendant is
entitled to summary judgment, the evidence is viewed in the
light most favorable to the Plaintiff, it is noted that the
Defendant testified that Plaintiff had told him that he did not
want to file a grievance against Wilson, but that he instead
wanted others to file it. See Pennington Deposition, pp. 150151. The Defendant also testified that he did not know until
2014 that Plaintiff was telling other people that he did not allow
Plaintiff to file a grievance. See Pennington Deposition, p. 152.

By contrast, to the extent Plaintiff’s complaints
concerning Pennington involve how he [Plaintiff] was
17

68a
Plaintiff testified to several instances wherein
he believed the Solicitor’s Office acted improperly over
the years. Although the Defendant properly notes in
his motion that the statute of limitations would bar
any free speech violation claims occurring prior to
November 2, 2012 (three years prior to the
commencement of this action on November 2, 2015);
see McMorris v. Sherfield, No. 10-670, 2011 WL
13457, at * 2 (D.S.C. Jan. 4, 2011) [Applying South
Carolina’s three year statute of limitations to
Federal Section 1983 claims]; the evidence (again,
considered in the light most favorable to the Plaintiff)
shows that following a murder trial in December 2012
which Plaintiff contends was replete with
questionable conduct by the State, the Defendant
prohibited Plaintiff from making comments to the
press that could be seen as critical without first
consulting with the Defendant. See Plaintiff’s
Exhibits 37 and 40; see also Plaintiff’s Deposition, pp.
65-69, 121, 126. Thereafter, in December 2013,
personally treated by Pennington in the office (other than to
the extent they may involve elements of unlawful retaliation),
those complaints would not present a constitutional claim.
Picott, 2017 WL 4159900, at * 5 [“[A] public employee’s speech
on matters of purely personal interest or internal office affairs
does not constitute a matter of public concern”]; Bearss, 2010
WL 11523749, at * 5 [“speech that is focused on matters
personal to the employee cannot be classified as being only a
matter of public concern”]; see also Connick, 461 U.S. at 147
[“When a public employee speaks not as a citizen upon matters
of public concern, but instead as an employee upon matters
only of person interest, absent the most unusual circumstances,
a federal court is not the appropriate forum in which to review
the wisdom of a personal decision taken by a public agency
. . . .”]; DeRitis, 861 F.3d at 455 [“Speech does not involve a
matter of public concern when it relates solely to mundane
employment grievances”] (internal quotes omitted).

69a
Plaintiff participated in a discussion on the SCACDL
listserve wherein he discussed ethical lapses by the
Solicitor’s Office and indicated that something should
be done about it, following which the Defendant
instructed him that he was not to speak or convey in
any manner to others comments critical of the
Solicitor or her office, especially regarding ethics or
honesty, without first obtaining the Defendant’s
permission. See Plaintiff’s Exhibits 43 and 44; see
also Plaintiff’s Deposition, p. 127. Later, in February
2014, the Defendant sent an email to the entire
Charleston County Public Defender’s Office
indicating that any perceived ethical breach by
prosecutors should be reported to him so that he
could investigate and determine how to respond
based on a “cost-benefit analysis”. See Plaintiff’s
Exhibit 48. The evidence also shows that when the
SCACDL was considering whether to file a grievance
against the Solicitor in early 2014, Plaintiff confirmed
some facts to the Board that were included in the
Board’s complaint. See McLaughlin Deposition, p.
57; Plaintiff’s Affidavit, ¶ 20; see also Plaintiff’s
Deposition, p. 127. After this SCACDL grievance was
covered by the press, Plaintiff wanted to report the
misconduct to the Bar, and on May 21, 2014
Plaintiff (through counsel) filed a complaint against
the Defendant for his refusal to allow Plaintiff to do
so.
See Plaintiff’s Exhibits 31, 61; see also
Plaintiff’s Amended Complaint, ¶ ¶ 34 and 35;
Plaintiff’s Deposition, pp. 198-199.
While the Defendant argues that the evidence
is not sufficient to show that he restrained Plaintiff’s
speech in an unlawful manner and that he was
within his rights to require his employees to consult

70a
with him on such matters before going public with
such serious charges, considered in the light most
favorable to the Plaintiff, the evidence is sufficient to
give rise to a question of fact as to whether the
Defendant improperly restrained Plaintiff from
discussing matters of public concern to survive
summary judgment.
United States v. National
Treasury Employees Union, 513 U.S. 454, 468 (1995)
[a prior restraint is unconstitutional if it is
sufficiently broad as to chill speech, that if spoken,
would be protected by the First Amendment];
Livermore v. City of Petersburg, 488 F.3d 400, 407408 (4th Cir. 2016); Lane v. Franks, 134 S.Ct. 2369,
2381 (2014) [“a stronger showing of [government
interests] may be necessary if the employee’s
speech more substantially involve [s] matters of
public concern”]; Garcetti v. Ceballos, 547 U.S. at
425 [“Exposing governmental inefficiency and
misconduct is a matter of considerable significance”];
DeRitis, 861 F.3d at 456-458 [Discussing how, in
determining whether a First Amendment violation
has occurred, the fact finder should weigh the
interest of the State, as the employer, in preventing
potential disruptions that could be caused by
statements that could undermine the effectiveness of
the office, against the extent the speech at issue
addresses an issue of public concern]; see also
Iannillo v. County of Orange, 187 F.Supp.2d 170, 185
(S.D.N.Y. 2002)[At summary judgment, the Court
expresses no view as to a plaintiff’s chance of success
on the merits of his claim at trial, and bases its
decision only on whether there is a material issue of
fact as to causation that renders summary judgment
inappropriate.]. Therefore, the Defendant is not

71a
entitled to summary judgment on Plaintiff’s prior
restraint claim under the First Amendment.
Plaintiff also alleges that he was unlawfully
retaliated against by Pennington when Pennington
terminated his employment in retaliation for
Plaintiff speaking out, as a citizen, on matters of
public concern. “In order to establish a cause of
action by a public employee for an alleged wrongful
discharge . . . in violation of the employee’s rights,
the Plaintiff-employee must demonstrate (1) that the
speech complained of qualified as protected speech or
activity and (2) that such protected speech or activity
was the ‘motivating’ or ‘but for’ cause for his
discharge . . . . ”. Jurgensen v. Fairfax County,
Virginia, 745 F.2d 868, 877-878 (4th Cir. 1984); see
also Mt. Healthy City School Bd. of Ed. v. Doyle, 429
U.S. 274, 287 (1977). Here, the undersigned has
already determined that there is a sufficient question
of fact as to whether the speech at issue in this case
is protected speech under the First Amendment to
preclude summary judgment on that issue. With
respect to whether there is a genuine issue of fact
that Plaintiff having engaged in this conduct was the
motivating cause for his discharge, the evidence
(again, considered in the light most favorable to the
Plaintiff) is that Pennington’s decision to terminate
Plaintiff’s employment was due to Plaintiff’s public
comments about the operation of the Solicitor’s
office, including with the SCACDL Board and with
the press, regarding ethics charges against the
Solicitor or her staff, and because Plaintiff in doing
so had violated Pennington’s directive not to
comment publically about such matters without his
permission. See Plaintiff’s Exhibits 7 (¶ ¶ 2, 10-13,

72a
20-21, 23-25, 33), 35. While the Defendant argues
that the evidence is not sufficient to meet the “but
for” standard for showing this was the cause for
Plaintiff’s discharge, that is a question of fact for the
jury. Jerguson, 745 F.2d at 880-881 [Noting that a
retaliation cause of action under the First
Amendment requires that the protected speech or
activity was the “but for” cause of the employee’s
discharge, and that the resolution of this question
depends on a factual determination of what the
actual cause was for the employee’s discharge].
Therefore, the Defendant Pennington is not entitled
to summary judgment on Plaintiff’s § 1983
retaliatory discharge claim under the First
Amendment.
Qualified Immunity. Finally, Pennington
also argues that, with respect to Plaintiff’s First
Amendment claim against him in his individual
capacity, that this claim should be dismissed because
he is entitled to qualified immunity. The Supreme
Court in Harlow v. Fitzgerald, 457 U.S. 800 (1982),
established the standard which the Court is to follow
in determining whether a defendant is protected by
qualified immunity.
Government
officials
performing
discretionary functions generally are
shielded from liability for civil damages
insofar as their conduct does not violate
clearly
established
statutory
or
constitutional rights of which a
reasonable person would have known.
Harlow, 457 U.S. at 818.

73a
Additionally, the Court of Appeals for the Fourth
Circuit has stated:
Qualified
immunity
shields
a
government official from liability for
civil monetary damages if the officer’s
“conduct does not violate clearly
established statutory or constitutional
rights of which a reasonable person
would have known.” Harlow, 457 U.S. at
818. “In determining whether the
specific right allegedly violated was
‘clearly established,’ the proper focus is
not upon the right at its most general or
abstract level but at the level of its
application to the specific conduct being
challenged.” Pritchett v. Alford, 973
F.2d 307, 312 (4th Cir. 1992). Moreover,
“the manner in which this [clearly
established] right applies to the actions
of the official must also be apparent.”
Maciariello v. Sumner, 973 F.2d 295,
298 (4th Cir. 1992) . . . As such, if there
is a “legitimate question” as to whether
an official’s conduct constitutes a
constitutional violation, the official is
entitled to qualified immunity.
Wiley v. Doory, 14 F.3d 993, 995 (4th Cir.
1994)(internal citations omitted), cert. denied, 516
U.S. 824 (1995).
The question thus becomes whether, considering the
facts and evidence in the light most favorable to the
Plaintiff, there is a genuine issue of fact as to whether

74a
Pennington’s conduct violated a clearly establish
statutory or constitutional right of which a
reasonable person would have known.
As previously noted, the undersigned has
determined that a genuine issue of fact exists as to
whether Pennington violated Plaintiff’s First
Amendment rights by preventing Plaintiff from
discussing or commenting on a matter of public
concern. National Treasury Employees Union, 513
U.S. at 468 [a prior restraint is unconstitutional if
it is sufficiently broad as to chill speech, that if
spoken, would be protected by the First
Amendment]; Lane, 134 S.Ct. at 2381 [“a stronger
showing of [government interest] may be necessary
if the employee’s speech more substantially involve
[s] matters of public concern”]; Garcetti, 547 U.S. at
425 [“Exposing governmental inefficiency and
misconduct is a matter of considerable significance”].
It is also clear that during the time period relevant to
Plaintiff’s claims, the law was clearly established
that even a public employee’s First Amendment
Rights could be violated where “the magnitude of this
interest rests on the extent to which [Plaintiff’s]
speech addressed an issue of public concern”. DeRitis,
861 F.3d at 457, citing Miller v. Clinton County, 544
F.3d 542, 549-550 (3rd Cir. 2008). Therefore, as there
is a genuine issue of fact as to whether Pennington’s
conduct violated a clearly established statutory or
constitutional right of which a reasonable person
would have known, he is not entitled to dismissal of
Plaintiff’s First Amendment claims based on
qualified immunity. Wiley, 14 F.3d at 995 [Qualified
immunity shields a government official from liability
for civil monetary damages only if the official’s

75a
conduct did not violate clearly established statutory
or constitutional rights of which a reasonable person
would have known].
ADA Claim 18
In his Second Cause of Action, Plaintiff
asserts a claim of discrimination based on a
disability in violation of the Americans with
Disabilities Act (ADA), 42 U.S.C. § 12101, et seq.
This claim is asserted only against the Defendants
Charleston County and Pennington in his official
capacity.
In his verified Amended Complaint, Plaintiff
cites both to 42 U.S.C. § 12102(2) and 42 U.S.C.
§ 12111(8) in support of his claim. The first statutory
cite is under Title II of the ADA, while the second
18 Congress made substantial changes to the ADA
through the ADA Amendments Act of 2008 (“ADAAA”), which
had an effective date of January 1, 2009. “The ADAAA was
intended to clarify congressional intent with respect to the
original ADA, as well as to overturn certain United States
Supreme Court cases that had narrowed the ADA’s scope;” Ryan
v. Columbus Regional Healthcare System, Inc., No. 10-234,
2012 WL 1230234 at * 3 (E.D.N.C. Apr. 12, 2012); and under
the ADAAA, “[t]he definition of disability . . . shall be construed
in favor of broad coverage of individuals . . . , to the maximum
extent permitted by the terms of this chapter.” 42 U.S.C.
§ 12102(4)(A). Further, “[t]he primary purpose of the ADAAA is
to make it easier for people with disabilities to obtain protection
under the ADA.” 29 C.F.R. § 1630.1 (2011). Since Plaintiff lost
his job in October 2014, these amendments apply to his ADA
claim. Therefore, to the extent any cases cited herein relating
to general ADA definitions pre-date 2009, the undersigned has
nonetheless considered Plaintiff’s claim pursuant to the
ADAAA’s enhanced standard.

76a
statutory cite is under Title I. Plaintiff cannot bring
an ADA claim against the Defendant Pennington in
his official capacity under Title I for damages. 19
Rivers v. Bannister, No. 11-194, 2012 WL 486178, * 3
(D.S.C. Feb. 13, 2012); see also Bd. of Trustees of the
University of Alabama, 531 U.S. 356. Pennington in
his official capacity is also entitled to dismissal
insofar as Plaintiff asserts a claim under Title II. Id.,
at * 5. 20 Therefore, Pennington in his official
capacity is entitled to dismissal as a party Defendant
under Plaintiff’s Second Cause of Action.
However, although (for purposes of this
lawsuit) the undersigned has considered the
Defendant (Pennington) to be a State employee, 21
the Plaintiff is deemed to be an employee of
Charleston County. See Plaintiff’s Exhibit 89
19 Plaintiff could pursue a claim against this Defendant
for injunctive relief under Title I of the ADA. See Bd. of Trustees
of the University of Alabama v. Garrett, 531 U.S. 356, at * 5
(2001). However, Plaintiff clarifies that his ADA claim is not
based on his termination. See Plaintiff’s Brief, p. 34.

Plaintiff argues in his brief that Pennington in his
official capacity has waived any immunity he may have as a
state official (or state office) by virtue of the Intergovernmental
Agreement he signed with Charleston County. See Plaintiff’s
Exhibit 89. However, that Agreement was only for purposes of
providing for the administration of Public Defender funds.
Additionally, the fact that Pennington, as the Ninth Circuit
Public Defender, entered into such an agreement with
Charleston County shows that he is a separate office and entity
from the County. It was not a waiver of any sovereign
immunity Pennington had as a state official. Id., ¶ 5 (Circuit
Public Defender retains all hiring authority for his/her
employees).
20

21

See, n. 13, supra.

77a
[Intergovernmental Agreement], providing that “all
employees of the Public Defender shall be employees
of [Charleston] County,” whose employment is
covered by “all applicable Federal, State, and Local
laws and ordinances . . . .”.
The Defendant
Charleston County is subject to, and may be found
liable for, violations of Title I 22 of the ADA,
depending on the claim asserted. See generally
Reyazuddin v. Montgomery County, MD, 789 F.3d
407, 418-421 (4th Cir. 2015). Therefore, Plaintiff may
proceed with his ADA claim against Charleston
County. 23
Title I of the ADA prohibits a “covered entity” from
discriminating against a qualified individual with a disability.
42 U.S.C. § 12112(a). Charleston County is considered a
“covered entity” in this case. Forman v. County of Suffolk, No.
13-2977, 2015 WL 4600755 at * 4 (E.D.N.Y. 2015) [“There is no
dispute here that the County of Suffolk is a covered entity”
under Title 1 of the ADA]; see also Douris v. Bucks County
Office of District Attorney, No. 04-232, 2005 WL 226151 at * * 56 (E.D.Pa. Jan. 31, 2005); Clark v. School District Five of
Lexington and Richland Counties, 247 F.Supp. 3d 734, 743 n. 7
(D.S.C. 2017) [Allowing Title I ADA claim to proceed against
defendant county school districts]. Further, with respect to the
conduct at issue in this lawsuit that was taken by Pennington,
for purposes of Plaintiff’s Title I ADA claim any discriminatory
conduct taken by him (as the “employer’s agent”) may create
liability for the employer (Charleston County). Williams v.
Grimes Aerospace Co., 988 F.Supp. 925, 936 (D.S.C. 1997).
22

However, Charleston County is not subject to suit
under Title II. Title II of the ADA provides that “no qualified
individual with a disability shall . . . be subject to
discrimination by a [public] entity”. 42 U.S.C. § 12132. The
Fourth Circuit has held that discrimination against the
disabled cannot be asserted under Title II of the ADA where the
claim is set forth in the employment context. Reyazuddin, 789
F.3d at 420-421 [“[W]e agree with the majority of circuits to
have considered the question that Title II unambiguously does
23

78a
In his verified Amended Complaint, Plaintiff
alleges that he suffers from rectal cancer, that his
condition was a “disability” within the meaning of the
ADA during the relevant time period, and that
Pennington failed to accommodate his request for
additional time to respond to questions and
information Pennington had directed Plaintiff to
provide pertaining to the conduct of the Solicitor’s
Office and Pennington’s orders about Plaintiff’s
disseminating those concerns. Plaintiff further
complains
that
Pennington
terminated
his
employment in the midst of his on-going course of
chemotherapy treatments, although in his brief
opposing the Defendant’s motion for summary
judgment, Plaintiff clarifies that he “does not claim he
was fired for a disability, but rather Pennington did
not honor his request for an accommodation”.
Plaintiff’s Brief, p. 34. Instead, to the extent his
firing relates to his disability, Plaintiff’s claim is only
that Pennington terminated him “how” and “when”
he did (although his termination may have been for
other reasons) so as to take advantage of Plaintiff’s
“weakened condition” due to his ongoing
chemotherapy treatments. Id.
The Defendant County asserts several
defenses to Plaintiff’s claims, including (initially)
that Plaintiff failed to exhaust his administrative
remedies with respect to the County since his EEOC
charge only named the Charleston County Public
Defender as the employer. See Defendants’ Exhibit
not provide a vehicle for public employment discrimination
claims”.]. Pursuant to this holding, Plaintiff may not pursue a
claim under Title II of the ADA.

79a
J. Defendant is correct that an action under Title
VII may generally only be brought against the
respondent named in the charge. See 42 U.S.C.
§ 2000e-5(f)(1). The purpose of the naming
requirement is to put the charged party on notice of
the complaint and allow the EEOC to attempt
reconciliation. See Causey v. Balog, 162 F.3d 795,
800 (4th Cir. 1998)(citing Alvarado v. Bd. of Trs. of
Montgomery County College, 848 F.2d 457, 460 (4th
Cir. 1988)). However, courts have recognized an
exception to this general rule when the defendant
was not named in the charge but nevertheless
received fair notice and the EEOC was able to
attempt conciliation with the responsible parties. See
Equal Employment Opportunity Comm’n v. Am. Nat.
Bank, 652 F.2d 1176, 1186 n. 5 (4th Cir. 1981).
Courts have developed exceptions to
this rule, though, where it is clear that
the
defendant
through
some
relationship with the named respondent
had notice of the charges and
participated in the conciliation process.
See, e. g., Stith v. Manor Baking Co., 418
F.Supp. at 156, and cases cited therein;
Escamilla v. Mosher Steel Co., 386
F.Supp.
101,
105
(S.D.Tex.1975)
[jurisdiction proper over parent of
wholly-owned subsidiary where parent
had or should have had notice of
conciliation process]; Chastang v. Flynn
& Emrich Co., 365 F.Supp. 957, 964
(D.Md.1973)[“where
there
is
substantial, if not complete identity of
parties before the EEOC and the court,

80a
it would require an unnecessarily
technical and restrictive reading of (the
statute)” to deny jurisdiction], aff'd in
relevant part, 541 F.2d 1040 (4th Cir.
1976).
Id.
Under the “substantial identity” test, “if
unnamed
defendants
are
substantially
or
functionally identical to named ones, then the
plaintiff may sue all defendants in a district court
action, despite the failure to name some of them in
the administrative action.”
Scurry v. Lutheran
Homes of S.C., Inc., No. CA 3:13-2808-JFA-PJG,
2014 WL 4402797, at *3–4 (D.S.C. Sept. 3, 2014)
(citing Mayes v. Moore, 419 F.Supp.2d 775, 783
(M.D.N.C. 2006)). Here, as previously noted, the
Intergovernmental Agreement places Pennington (as
the Circuit Public Defender) in the shoes of the
County for purposes of Plaintiff’s ADA claim. See
Plaintiff’s
Exhibit
89
[Intergovernmental
Agreement], ¶ 7 (Noting that “personnel of the
Public Defender shall be employees of Charleston
County . . . .”); Williams, 988 F.Supp. at 936
[“Discriminatory personnel actions taken by an
employer’s agent may create liability for the
employer”]; Oliver v. Spartanburg Regional Health
Care System, Inc., No. 15-4759, 2016 WL 5419459,
at * 3 (D.S.C. Sept. 8, 2016) [Report and
Recommendation]. Therefore, Charleston County is
not entitled to dismissal on the ground that it was
not specifically named in Plaintiff’s EEOC filing.

81a
As for the merits of Plaintiff’s ADA claim, the
Defendant does not contest for purposes of summary
judgment that Plaintiff had a disability as defined by
the ADA, but argues that Plaintiff has failed to
present any evidence sufficient to show that his
termination was as a result of any disability he had.
Defendants’ Brief, p. 18. However, Plaintiff is not
asserting that he was terminated because he was
disabled. Rather, Plaintiff’s claim is a failure to
accommodate claim, based on Pennington’s alleged
refusal to allow him additional time to respond to
information Pennington was seeking (additional
time that Plaintiff alleges he needed due to his
weakened condition as a result of his cancer
treatments). See Plaintiff’s Deposition, p. 90. The
ADA makes it unlawful for an employer to fail to
make “reasonable accommodations to the known
physical or mental limitations of an otherwise
qualified individual with a disability who is an . . .
employee . . .” 42 U.S.C. § 12112(b)(5)(A).
To establish a prima facie case of failure to
accommodate under the ADA, Plaintiff’s evidence
must show that (1) he is an individual who has a
disability within the meaning of the statute; (2) the
Defendant had notice of his disability; (3) with
reasonable accommodation he could perform the
essential functions of his position; and (4) the
Defendant refused to make such accommodations.
See Reyazuddin, 789 F.3d at 414-416; Wilson v.
Dollar General Corp., 717 F.3d 337, 345 (4th Cir.
2013); Donaldson v. Clover School District, No. 151768, 2017 WL 4173596 at * 3 (D.S.C. Sept. 21,
2017). Only the third and fourth elements are at
issue here. The evidence shows that on September

82a
23, 2014 Pennington sent a list of sixteen (16)
questions (including subparts) that Plaintiff was to
answer at a meeting the following day. Plaintiff’s
Exhibit 71. Plaintiff sent Defendant a response in
which he noted, inter alia, the problems he was
having with his cancer treatment and the effects the
treatment was having on him, and requesting a
postponement of the meeting. Plaintiff’s Exhibit 72.
According to the Plaintiff, the Defendant refused his
request for an extension and insisted that Plaintiff
show up with his answers, in writing, the following
day. See Plaintiff’s Verified Amended Complaint,
¶ 77; see also Court Docket No. 111-6, p. 2
[Plaintiff’s Deposition Exhibit 9].
This evidence is sufficient to give rise to a
genuine issue of fact as to whether the Defendant
refused to provide a reasonable accommodation that
had been requested by the Plaintiff, as it is clear that
Plaintiff made a request for an accommodation, a fact
finder could determine that this was a reasonable
request, and there has been no evidence presented to
show that any harm would have resulted from the
Defendant not accommodating this request. 24
See generally Barber v. Columbia Coll., No. 053405, 2007 WL 2891657 at * 3 (D.S.C. Sept. 28,
2007) [holding that employers have a duty under the
ADA to provide reasonable accommodation when so
requested]; but see also Godlove v. Martinsburg
24 Indeed, the evidence shows that the meeting was
eventually postponed, but only because an assistant public
defender was killed in an automobile accident, not because the
Defendant agreed to accommodate Plaintiff’s request due to his
medical condition. Plaintiff’s Verified Amended Complaint,
¶ 78; see also Plaintiff’s Deposition, pp. 202-203.

83a
Senior Towers, LP, No. 14-132, 2015 WL 1809325 at
* 4 (4th Cir. Apr. 21, 2015) [“A reasonable
accommodation claim requires proof of such a
specific request.”]; Shin v. Univ. of Md. Med. Sys.
Corp., 369 Fed.Appx. 472, 481 (4th Cir. 2010)
[Plaintiff “bears the burden of identifying an
accommodation that would allow a qualified
individual to perform the job, as well as the ultimate
burden of persuasion with respect to demonstrating
such an accommodation is reasonable.”]. Therefore,
the Defendant Charleston County is not entitled to
summary judgment on Plaintiff’s Second Cause of
Action asserting a claim under the ADA. 25
FMLA Claim
In his Third Cause of Action, Plaintiff asserts
an interference claim under the FMLA against all of
the Defendants. However, the Defendant Pennington
25 As previously noted, Plaintiff does also allege that
Pennington used the fact of Plaintiff’s weakened condition to
try to extract concessions from him (such as a waiver of any
legal claims arising out of his employment) when Pennington
terminated him. See Court Docket No. 111-7 [Plaintiff’s
Termination Letter with Severance Offer]. However, Plaintiff
does not contend that his disability was the reason for the
termination itself, and in any event Plaintiff did not agree to
the conditions Pennington tried to (allegedly) force on him.
Therefore, this assertion does not constitute a valid ADA claim
for purposes of this lawsuit. Cf. Hurd v. Cardinal Logistics
Mgmt. Corp., No. 17- 319, 2018 WL 4604558, at * 4 (W.D.Va.
Sept. 25, 2018)[To establish liability, a claim under “the ADA
must be based not merely on a technical violation of the statute
but on some cognizable injury- in-fact of which the statutory
violation is a legal and proximate cause.”](quoting Whindleton
v. Coach, Inc., No. 3:13-00055, 2015 WL 412021, at *3 (W.D. Va.
Jan. 30, 2015)) (internal quotations omitted).

84a
in his official capacity is an arm of the State, and
cannot therefore be sued for monetary damages
under Plaintiff’s FMLA claim by virtue of the
Eleventh Amendment. See Coleman v. Maryland
Court of Appeals, 132 S.Ct. 1327, 1332, 1338
(2012)[“In agreement with every Court of Appeals to
have addressed this question, this Court now holds
that suits against States under [the FMLA’s self-care
provision] are barred by the States’ immunity as
sovereigns in our federal system”]; 26 see also Lizzi v.
Alexander, 255 F.3d 128, 135-136 (4th Cir. 2001),
overruled in part on other grounds by, Nevada Dep’t
of Human Resources v. Hibbs, 538 U.S. 721 (2003);
Nelson v. University of Texas at Dallas, 535 F.3d 318,
There is some authority that, in appropriate
circumstances, suit may be brought in federal court against a
state official in their official capacity seeking prospective
injunctive relief, including even under the “self-care” provision
of the FMLA. See Ex parte Young, 209 U.S. 123 (1908); Lytle v
Griffith, 240 F.3d 404, 408 (4th Cir. 2001)[Ex parte Young
authorizes “suit against state officers for prospective equitable
relief from ongoing violations of federal law”]; Stewart v.
Moccasin Bend Mental Hospital, Nos. 07-305, 08-255, 2009 WL
2244621, * * 5-6 (E.D.Tenn. July 24, 2009)[“[A] claim for
reinstatement brought under the self-care provision of the
FMLA falls under the Ex parte Young exception to Eleventh
Amendment immunity”]. However, Plaintiff makes clear in his
verified Amended Complaint that he seeks monetary damages
under this cause of action. See Plaintiff’s Verified Amended
Complaint, ¶ ¶ 110-111. To the extent Plaintiff is also seeking
prospective injunctive relief of reinstatement, that is not relief
obtainable under this cause of action (although it may be under
others), as there is no evidence to show, nor does Plaintiff even
assert, that his termination was the result of a violation of the
FMLA. Plaintiff specifically testified that he was not claiming
that he was fired for taking FMLA leave. See Plaintiff’s
Deposition, p. 95. Therefore, Plaintiff cannot pursue his FMLA
claim against Pennington in his official capacity.
26

85a
321 (5th Cir. 2008); Batchelor v. South Florida Water
Management District, 242 Fed. Appx. 652 (11th Cir.
2007); Miles v. Belfontaine Habilitation Center, 481
F.3d 1106 (8th Cir. 2007); Toeller v. Wisconsin Dep’t
of Corrections, 461 F.3d 871 (7th Cir. 2006); Touvell
v. Ohio Dep’t of Mental Retardation and
Developmental Disabilities, 422 F.3d 392, 402 (6th
Cir. 2005); Brockman v. Wyoming Dep’t of Family
Services, 342 F.3d 1159, 1164 (10th Cir. 2003). 27
With respect to Pennington in his individual
capacity, Plaintiff has set forth no factual allegations
in the verified Amended Complaint to establish that
Pennington was ever at any time acting other than
in his official capacity when making the decisions or
taking the actions at issue with respect to his FMLA
claims. See generally, Verified Amended Complaint,
¶ ¶ 86-88, 92, 108; see also Plaintiff’s Deposition, pp.
47-55. While Plaintiff does allege in ¶ 89 of his
verified Amended Complaint that Pennington acted
in an ultra vires manner, the evidence does not
support this assertion. An act is “ultra vires” if it is
an act done without legal authority. Plaintiff’s Third
Cause of Action alleges, and the evidence submitted
by the parties shows, that Pennington was acting
27 Notably, these rulings stand in contrast to court
rulings regarding the “family leave” provision of the FMLA; 29
U.S.C. § 2612(a)(1)(C); which allows an employee to obtain
leave in order to care for a family member. The United States
Supreme Court has held that the abrogation of the States’
immunity from suit under the “family leave” provision meets
constitutional muster, and that the States therefore have no
immunity from suit under that provision. See Nevada
Department of Human Resources v. Hibbs, 538 U.S. 721, 725726, 737 (2003). That is not, however, the provision of the
FMLA at issue in this lawsuit.

86a
within his legal authority as the Circuit Public
Defender
when
he
entered
into
the
28
Intergovernmental Agreement, that calculation of
Plaintiff’s FMLA leave time was done by and
through the County, and that the Defendant
Pennington was acting in his capacity as the Circuit
Public Defender and Plaintiff’s boss when he
terminated Plaintiff’s employment. Therefore, the
evidence does not create an issue of fact as to
whether Pennington was acting untra vires for
purposes of Plaintiff’s FMLA claim.
Luder v.
Endicott, 253 F.3d 1020, 1022-1023 (7th Cir.
2000)[“[A] suit nominally against state employees in
their individual capacities that demonstratively has
the identical effect as a suit against the state is, we
think, barred. Any other position would be
completely unrealistic and would make a mockery of
the Supreme Court’s heightened sensitivity to state
prerogatives”].
[FLSA case].
Moreover, and
significantly, even if this Court was to otherwise find
that the evidence was sufficient to set forth an
individual capacity claim against Pennington,
Fourth Circuit precedent clearly holds that claims
against state employees in their individual
capacities under the FMLA are barred by state
sovereign immunity because the State is the real
party in interest. See Lizzi, 255 F.3d at 136-138
(citing Kazmier v. Widmann, 225 F.3d.519, 533, n.
65 (5th Cir. 2000)), overruled in part on other
grounds by, Nevada v. Dep’t of Human Resources v.
Hibbs, 538 U.S. 721 (2003). Hence, Pennington
cannot be sued in federal court for a violation of the
28 See Court Docket No. 111-9 [Intergovernmental
Agreement].

87a
FMLA in his individual capacity. See Brown v. Lt.
Governor’s Office of Aging, 697 F.Supp. 2d 632, 639
(D.S.C. 2010); Smith v. City of Marion, No. 11-2039,
2012 WL 694314, at * 5 (D.S.C. Jan. 27, 2012)
[Agreeing with courts that hold a public official
cannot be held individually liable for violations of the
FMLA] (Report and Recommendation).
In reaching this conclusion, the undersigned
is aware that some jurisdictions have held that
Coleman, while upholding state sovereign immunity
under the FMLA, did not bar FMLA claims in
federal court against state employees in their
individual capacity. 29 However, the undersigned
agrees with Judge Currie’s decision in Brown that,
until the holding by the Fourth Circuit in Lizzi that
state employers in their individual capacities cannot
be sued under the FMLA is overruled by either the
29 Cf. Modica v. Taylor, 465 F.3d 174, 184 (5th Cir.
2006)[Individual liability may exist for public employees under
the FMLA]; Darby v. Bratch, 287 F.3d 673, 681 (8th Cir.2002)
[holding that a public official may be held liable in his or her
individual capacity for retaliation in violation of the FMLA];
Dennard v. Towson Univ., 62 F.Supp.3d 446, 452 (D.Md.
2014)[noting that sovereign immunity cannot be raised as a
defense where monetary relief is sought against public
employees in their individual capacity under the FMLA];
Sheaffer v. County of Chatham, 337 F.Supp.2d 709, 728–29
(M.D.N.C.2004); Cantley v. Simmons, 179 F.Supp.2d 654, 656
(S.D.W.Va.2002); Morrow v. Putnam, 142 F.Supp.2d 1271, 1273
(D.Nev.2001); Bell v. University of California Davis Medical
Center, No. 11-1864, 2013 WL 1896318 at * 10 (E.D.Ca. May
6, 2013), adopted by, 2013 WL2664552 (E.D.Ca. June 11,
2013); Howard v. Pennsylvania Dep’t of Public Welfare, No. 111938, 2013 WL 102662 at * * 9-10 (E.D.Pa. Jun. 9, 2013);
Santiago v. Connecticut Dept of Transportation, No. 12-132,
2012 WL 5398884 at * 4 (D.Conn. Nov. 5, 2012).

88a
Fourth Circuit or the Supreme Court, 30 that
decision remains binding on this Court. Brown, 697
F.Supp.2d at 639 [“Until the Supreme Court or the
en banc Fourth Circuit articulates a different Rule,
Lizzi remains controlling precedent as to the
extension of the Eleventh Amendment immunity to
supervisory employees of a state who are sued for
damages as to claims for which the state, itself, is
entitled to Eleventh Amendment immunity”]. See
also Williams v. Dorchester Detention Center, 987
F.Supp.2d 690, 692-694 (D.S.C. 2013); Mitchell v.
Chapman, 343 F.3d 811, 833 (6th Cir.2003)[public
official is not an employer for purposes of the FMLA
when sued in his individual capacity], cert. denied,
542 U.S. 937 (2004); Wascura v. Carver, 169 F.3d 683,
686 (11th Cir.1999); Keene v. Rinaldi, 127
F.Supp.2d 770, 776 (M.D.N.C.2000) [holding that
public officials are not liable in their individual
capacities under the FMLA]; Law v. Hunt Cty., Texas,
830 F. Supp. 2d 211, 215–16 (N.D. Tex. 2011)[same];
Svet v. Florida Dep’t of Juvenile Justice, No. 11- 394,
2012 WL 5188036 at * 3 (M.D.Fla. Oct. 19,
2012)[Extending protection in FMLA claim to
individual Dependant in official capacity]; Smith v.
City of Marion, No. 11-2039, 2012 WL 694275, at * 1
(D.S.C. Mar. 2, 2012)[adopting the thorough analysis
in
the
Magistrate
Judge’s
Report
and
Recommendation and concluding there is “no
liability for public agency employees under the
FMLA.”]. 31 Therefore, Pennington is entitled to
30 Coleman did not address the question of individual
liability under the FMLA.

The undersigned also observes that in at least two of
the District Court decisions from this Circuit which found that
individual capacity suits under the FMLA should be allowed,
31

89a
dismissal as a party Defendant under Plaintiff’s
FMLA claim. 32
As for the remaining Defendant, Charleston
County is subject to liability for Plaintiff’s FMLA
they did not discuss the Fourth Circuit’s decision in Lizzi, which
the undersigned believes (in accord with Brown) is binding
precedent on this issue. See Reed v. Maryland, Dep’t. of Human
Resources, No. 12-472, 2013 WL 489985 (D.Md. Feb. 7, 2013);
see also Sheaffer, 337 F.Supp.2d at 728–29.
It is also noted that in a recent Fair Labor Standards
Act (FLSA) case, the Fourth Circuit considered whether two
public supervisors who were sued in their individual capacities
were entitled to dismissal based on sovereign immunity. See
Martin v. Wood, 772 F.3d 192 (4th Cir. 2014). While Martin deals
with the FLSA, which contains differing language with regard
to the definition of an employer, the Fourth Circuit’s analysis
regarding when the State is the real party in interest is on
point with the analysis in this case:
32

To identify the real, substantial party in interest,
we thus examine the substance of the claims
stated in the complaint, positing inquiries such
as: (1) were the allegedly unlawful actions of the
state officials ‘tied inextricably to their official
duties,’ Lizzi, 255 F.3d at 136; (2) if the state
officials had authorized the desired relief at the
outset, would the burden have been borne by
the State, cf. Pennhurst, 465 U.S. at 109 n. 7,
104 S.Ct. 900; (3) would a judgment against the
state officials be “institutional and official in
character,” such that it would operate against
the State, id. at 108; (4) were the actions of the
state officials taken to further personal
interests distinct from the State's interests, id.;
and (5) were the state officials' actions ultra
vires, id. at 111; Lizzi, 255 F.3d at 136.
Martin, 772 F.3d at 196.

90a
claim for the same reason it is subject to liability
under Plaintiff’s ADA claim. See discussion, supra.
Plaintiff’s FMLA claim against the County is an
“interference” claim relating to the calculation of his
leave time. 33
The FMLA provides twelve (12) weeks of
unpaid leave per year for eligible employees. An
“eligible employee” under the Act is an employee
who has been employed for at least twelve (12)
months by the employer with respect to whom leave
is requested, and for at least one thousand two
hundred and fifty (1,250) hours of service with such
employer during the previous twelve (12) month
period. 29 U.S.C. § 2611(2)(A). “To establish
unlawful interference with an entitlement to FMLA
benefits, an employee must show that: (1) he was an
eligible employee, (2) the employer was covered by
the Act, (3) he was entitled to leave under the FMLA,
(4) he gave the employer adequate notice of his
intention to take leave, and (5) the employer denied
him FMLA benefits to which he was entitled.”
Carr, 2013 WL 1282105 at * 7 (quoting King v.
Blanchard Mach. Co., No. 10-3219, 2012 WL
33 The FMLA creates two types of claims: “(1)
interference claims, in which an employee asserts that his
employer denied or otherwise interfered with his substantiative
rights under the Act; and (2) retaliation claims, in which an
employee asserts that his employer discriminated against him
because he engaged in activity protected by the Act”. Carr v.
Mike Reichenbach Ford Lincoln, Inc., No. 11-2240, 2013 WL
1282105 at *6 (D.S.C. Mar. 26, 2013)(quoting Gleaton v.
Monumental Life Ins. Co., 719 F.Supp.2d 623, 633, n. 3 (D.S.C.
2010)); Sommer v. The Vanguard Group, 461 F.3d 397, 399 (3rd
Cir. 2006). As noted, Plaintiff’s claim here is an interference
claim.

91a
4586177 at * 5 (D.S.C. Sept. 28, 2012));
Makowski v. Smithamundsen LLC, 662 F.3d 818,
825 (7th Cir. 2011). Furthermore, to succeed on this
claim, Plaintiff must show that the interference he
alleges caused him prejudice. Downey v. Strain, 510
F.3d 534, 540 (5th Cir. 2007)[“[T]he FMLA’s remedial
scheme . . . requires an employee to prove prejudice
as a result of an employer’s noncompliance.”] (citing
Ragsdale v. Wolverwine World Wide, Inc., 535 U.S.
81,
90
(2002));
Anderson
v.
Discovery
Communications, LLC, No. 11-2195, 2013 WL
1364345, at * 6 (4th Cir. Apr. 5, 2013)[In order to
establish a FMLA interference claim, Plaintiff has to
prove not only interference, but that the violation
prejudiced her]; Croy v. Blue Ridge Bread, Inc., No.
12-00034, 2013 WL 3776802, at * 8 (W.D.Va. July
15, 2013)[Plaintiff must demonstrate that he was
prejudiced in some way].
The Defendant County has not disputed for
purposes of summary judgment the first four
elements of Plaintiff’s FMLA interference claim. As
such, Plaintiff was entitled to take reasonable leave
for medical and other reasons in a manner that
accommodated the legitimate interests of his
employer. 29 U.S.C. § 2612. See Taylor v. Progress
Energy, Inc., 493 F.3d 454, 457 (4th Cir. 2007)[Under
the FMLA, an employee has a “right to take a
certain amount of unpaid medical leave each year
and the right to reinstatement following such
leave.”]. Defendant argues instead that Plaintiff’s
claim fails because Plaintiff received all of the
FMLA leave he requested. Defendants Brief, p. 18.
See Ragsdale, 112 S.Ct. at 1161; and 29 U.S.C.
2617(a)(1)(A)(i)[prejudice exists where there is a loss

92a
of compensation or benefits because of the alleged
violation]. However, Plaintiff’s evidence (considered
in the light most favorable to him) is that after he
was diagnosed with rectal cancer on April 7, 2014, he
was told by the Public Defender office manager that
if he expected to be away from work for more than two
weeks, he needed to fill out papers for the County
which included information to be supplied by his
doctor. Plaintiff states that to the best of his
recollection the completed forms were thereafter
provided to the County. Plaintiff further states that
on June 5, 2014 he was told by the office manager
that the County had approved his FMLA leave and
that he would be receiving a letter from the County
confirming this, but that he never did receive a letter
from the County confirming his leave, designating it
as FMLA leave, or otherwise explaining its operation.
See also Plaintiff’s Deposition, pp. 6-7, 49, 52, 207.
Even so, the Defendant County was counting his sick
leave hours as FMLA hours, and Plaintiff asserts
that by the time he was told orally by the office
manager on June 5, 2014 that his FMLA leave had
been approved, Plaintiff had already been charged
with approximately 252 hours (4 and ½ weeks) of
FMLA leave. Plaintiff states, however, that he does
not recall ever having received any information from
the County about his options under the FMLA, or
about the consequences of when his FMLA leave was
deemed to have commenced or about its exhaustion.
Plaintiff also states that he “never received notice
that he could fired in the middle of cancer treatment
if he exhausted his 12 weeks of FMLA leave, even if
at the time he had substantial annual leave left.”
Verified Amended Complaint, ¶ 103; see also
Plaintiff’s Deposition, pp. 49-50.

93a
Plaintiff contends that the County’s failure to
inform him of the consequences of exhausting his
FMLA leave before the County began charging him
with FMLA hours resulted in his not taking
necessary measures from the beginning to preserve
his leave for the long treatment road ahead.
Plaintiff’s Deposition, pp. 206-208. This assertion is
sufficient to state an FMLA interference claim for
purposes of summary judgment. See Vannoy v. The
Federal Reserve Bank of Richmond, 827 F.3d 296,
302-303 (4th Cir.2016)[recognizing an allegation that
FMLA leave would have been structured differently
may be sufficient “prejudice” to support an FMLA
interference claim]; Muhammad, 36 F.Supp.2d at
243 [“Thus, at the summary judgment stage the only
inquiry is the threshold one of determining whether
there is the need for a trial, that is, ‘whether the
evidence presents a sufficient disagreement to require
submission to [the trier of fact] or whether it is so onesided that one party must prevail as a matter of
law.’”]. Therefore, the Defendant Charleston County
is not entitled to summary judgment on Plaintiff’s
FMLA claim.
Plaintiff’s Claim for Defamation
In his Fourth Cause of Action, Plaintiff asserts
a claim for defamation against Pennington in his
individual capacity. The standard for a successful
defamation claim has previously been set forth in the
discussion of Pennington’s counterclaim. Supra.
Plaintiff states that Pennington hand
delivered his termination letter to him on October
14, 2014, which contained various false statements

94a
about the Plaintiff’s honesty and integrity and
questioning Plaintiff’s performance of his duties as
an APD. Verified Amended Complaint, ¶ ¶ 113,
115. See Plaintiff’s Exhibits 35, 87. Plaintiff
contends that Pennington composed this letter
specifically with the knowledge and intent that it
would subsequently be published to the media
through the Freedom of Information Act, and notes
that the contents of the letter did indeed
subsequently appear in several highly visible media
publications.
Id., ¶ 116; see also Plaintiff’s
Deposition, pp. 43-44. Plaintiff further contends that
Pennington told members of the SCACDL Board that
Plaintiff was using it [the Board] for his own
personal agenda at the expense of Plaintiff’s clients,
and that Plaintiff was manipulating the SCACDL
(an organization composed of Plaintiff’s peers and
colleagues in the legal profession). Id., p. 118; see also
Plaintiff’s Deposition, pp. 149-153, 208-209; Plaintiff’s
Exhibits 49-52. Plaintiff contends that these
assertions by Pennington were false, and constitute
slander per se because they accuse Plaintiff of
unfitness in his business or profession and because
the defamatory meaning of the statements was
obvious on its face. Verified Amended Complaint, ¶ ¶
119-120; see also Plaintiff’s Exhibits 47, 49 (p. 9-10,
13), 51 (p. 7), 52 (p. 6), 57, 58. Plaintiff further states
that on or about August 27, 2014, Pennington issued
a press release in which he stated that accusations
that he had ordered Plaintiff not to file a grievance
against Wilson were “utterly false”. See Plaintiff’s
Exhibit 69; see also Plaintiff’s Deposition, p. 53.
This statement was subsequently published in the
Charleston newspaper. See Plaintiff’s Deposition,

95a
pp.
153-154; see also Plaintiff’s Exhibit 7. 34
Plaintiff argues that the statements in this press
release also constitute libel per se, and that
Pennington made these defamatory statements with
actual malice and with the intent to injure Plaintiff’s
reputation. Verified Amended Complaint, ¶ ¶ 124125.
Pennington offers several arguments for why
Plaintiff’s defamation claim should be dismissed.
Pennington first contends that as a state official, he
is immune from suit for claims asserted under the
South Carolina Tort Claims Act (SCTCA).
Pennington is correct that in his “official” capacity
he cannot be sued in this Court, both by virtue of the
Eleventh Amendment; see, discussion, supra; and
because (even if he could be sued in this Court) the
proper party defendant for Plaintiff’s defamation
claim is the Office of Public Defender (i.e.,
Pennington in his official capacity), not Pennington
in his individual capacity. Flateau v Harrelson, 584
S.E. 2d 413, 417 (S.C.Ct.App. 2003) [Under the
SCTCA, “a government employee acting within the
scope of official duty is exempt from personal
liability.”]; Cornelius v. City of Columbia, No. 063215, 2007 WL 2116466 at * 3 (D.S.C. Mar. 6, 2007),
34 Although the press release did not refer to Plaintiff
by name, using the term “subordinate lawyer”, Plaintiff
contends that it was clear to everyone who that “subordinate
lawyer” was. See Neeley v. Winn-Dixie Greenville, Inc., 178
S.E.2d 662, 665 (S.C. 1971) [Statement may be defamatory if it
is “such that persons reading or hearing it will, in the light of
surrounding circumstances, be able to understand that it refers
to the person complaining, and it must have been so understood
by at least one other person”.]

96a
adopted in party by, 2011 WL 2116459 (D.S.C. July
19, 2007). However, the SCTCA “does not grant an
employee immunity from suit and liability if it is
proved that the employee’s conduct was not within
the scope of his official duties or that it
constituted actual fraud, actual malice, intent to
harm, or a crime involving moral turpitude”. McCall
v. Williams, 52 F.Supp. 2d 611, 615 (D.S.C. 1999),
quoting S.C.Code Ann. § 31-78-70(b), as amended.
Plaintiff clearly asserts in this action that the
Defendant
Pennington’s allegedly defamatory
conduct was accompanied by actual malice. See
Plaintiff’s Deposition, p. 208; see also Verified
Amended Complaint, ¶ ¶ 2, 117, 125, 130. This is a
question to be decided by the finder of fact.
Therefore, Pennington is not entitled to dismissal of
Plaintiff’s defamation claim against him individually.
McCall, 52 F.Supp. 2d at 615 [“Thus, a
governmental employee can be personally liable for
intentional torts . . . .”](citing Roberts v. City of
Forest Acres, 902 F.Supp. 662, 671 (D.S.C. 1995));
see Quadir v. Cooke, No. 08-498, 2008 WL 5215610
at * 8 n. 9 (D.S.C. Dec. 11, 2008) [Defamation is an
intentional tort].
Pennington further argues that any comments
he made or published about the Plaintiff were in the
course and scope of his position as the Ninth Circuit
Public Defender, and that any such statements were
therefore privileged. Swinton Creek Nursery v.
Edisto Farm Credit, ACA, 514 S.E.2d 126, 134 (S.E.
1999) [“In a defamation action, the defendant may
assert the affirmative defense of conditional or
qualified privilege”]. However, considered in the
light most favorable to the Plaintiff, there is a

97a
question of fact as to whether Pennington would be
entitled to this privilege in this case. Under South
Carolina law, “[w]hen one has an interest in the
subject matter of a communication, and the person
(or persons) to whom it is made has a corresponding
interest, every communication honestly made, in
order to protect such common interests is privileged
by reason of the occasion”. Bell v. Bank of Abbyville,
38 S.E.2d 641, 643 (S.E. 1946). However, the
statement at issue “must be such as the occasion
warrants, and must be made in good faith to protect
the interests of the one who makes it and the
persons to whom it is addressed”. Id. Here (again,
considered in the light most favorable to the Plaintiff),
there is a question whether the comments and
statements made by Pennington were (as alleged by
the Plaintiff) made with malice, and a Plaintiff may
recover for a defamatory communication, even one
that is otherwise accompanied by a qualified privilege,
“if he shows that it was actuated by malice”.
Richardson, 255 S.E.2d at 342, quoting Bell, 38 S.E.2d
at 642. Moreover, it “is generally held that the
protection of a qualified privilege may be lost by the
manner of its exercise”, and the “person making it
making it must be careful to go no further than his
interest or his duties require”. Fulton v. Atlantic
Coastline R.R.Co., 67 S.E.2d 425, 429 (S.C. 1951).
Considered in the light most favorable to the
Plaintiff, there is a question of fact in the evidence
as to whether Pennington exceeded any privilege he
may have otherwise had in making the statements
and comments he did concerning the Plaintiff. See
also Mains v. K-Mart, Inc., 375 S.E.2d 311, 315
(S.C.Ct.App. 1988) [Whether a speaker exceeded a
privilege is a jury question]; cf. Legette v. Nucor

98a
Corp., No. 12-1020, 2012 WL 3029650 at * 3 (D.S.C.
July 29, 2012) [“Even assuming a qualified privilege
applies to all of the alleged statements, Plaintiff has
alleged that the statements were made with reckless
disregard and malice”.]
Finally, Defendant argues that he is entitled
to summary judgment on Plaintiff’s defamation
claim because Plaintiff [like the Defendant] is a
public figure. As already noted in the discussion
herein with respect to the Defendant’s counterclaim
for defamation, as a public figure (which Plaintiff
does not dispute) Plaintiff must plead and prove that
any alleged defamation of him was done with actual
malice to succeed on this claim. See New York Times
Co., 376 U.S. at 270; cf. Parrish, 1994 WL 159533 at
* 3 [Discussing public defenders as public figures];
see also S.C.Code 17-3-510 (2007). Plaintiff
specifically alleges that the comments and
publications by the Defendant were made with
malice, and the undersigned finds that this is a
question of fact for the jury to determine. Plaintiff’s
Deposition, p. 208. See Flemming, 567 S.E.2d at 860
[Actual malice means the publisher of the statement
had knowledge the statement was false or acted with
reckless disregard as to whether or not it was false];
Elder v. Gaffney Ledger, 533 S.E.2d 899, 902 (S.C.
2000) [Actual malice can be found where the
publisher in fact entertained serious doubts as to the
truth of his publication and/or had a high degree of
awareness of probable falsity]; Holtzscheiter, 506
S.E.2d at 508-509 [Statement may be actionable per
se where it is both false and defamatory and
suggests unfitness in one’s business or profession].

99a
Therefore, the Defendant is not entitled to
summary judgment on Plaintiff’s claim for
defamation.
Claim for Breach of Implied Contract
In his Fifth Cause of Action, Plaintiff asserts
that he had an “implied contract” of employment
with the Defendant Pennington in his official capacity
and/or the Defendant Charleston County, because
“[i]n the hiring of any lawyer . . . in South Carolina,
there is implied a fundamental understanding
between the employer attorney and the employee
attorney that both will conduct their respective legal
practices in accordance with the ethical standards
of the profession.” Verified Amended Complaint,
¶ 138. Plaintiff then alleges that this “implied
contract” was breached by the Defendants, because
“[u]nder South Carolina law, there is implied in
every contract an implied covenant of good faith
and fair dealing”, and that the Defendants
breached that fundamental understanding. Id.,
¶ 138. Although Plaintiff acknowledges in his brief
(as did counsel at the motions hearing) that South
Carolina is an employment at-will state, Plaintiff
cites as support for what he concedes to be this
“novel” claim the case of Weider v. Skala, 609 N.E.2d
105 (N.Y. 1992). In that case, the New York Court of
Appeals found that the Plaintiff attorney in that case
had stated a valid claim for breach of contract, based
on an implied-in-law obligation arising out of his
relationship with the Defendants (his superiors at the
law firm where he worked), after he was fired when
he sought to report misconduct by a fellow associate
at the firm. The New York court found that

100a
“[i]nsisting that as an associate in their employ
plaintiff must act unethically and in violation of one
of the primary professional rules amounted to
nothing less than a frustration of the only
legitimate purpose of the employment relationship”.
Id., at 109-110.
However, Plaintiff fails to point to any other
support (other than this one 1992 New York Court of
Appeals opinion) for his argument that his
termination by Pennington gives rise to a claim for
breach of contract under South Carolina law, and
counsel also conceded at the hearing that Plaintiff
had no other authority for such a novel claim. Even
so, counsel argued that since this issue is one of
novel first impression in South Carolina, it should
not be determined by way of summary judgment,
but should instead be determined on a full record
after trial, citing to Rhodes v. E.I. duPont
deNemours & Co., 636 F.3d 88, 97-98 (4th Cir. 2011)
[“A federal court . . . should act conservatively when
asked to predict how a state court would proceed on a
novel issue of state law”]. However, while Charleston
County (but not Pennington in his official capacity)
may otherwise be subject to a breach of contract
claim in this Court, there is simply no basis for
Plaintiff’s implied contract claim under state law.
Under South Carolina law, in order to prevail
on a breach of contract claim, the Plaintiff bears the
burden of establishing the existence and terms of the
contract, the Defendant’s breach of one or more of
the contractual terms, and damages resulting from
the breach. Taylor v. Cummins Atlantic, Inc., 852
F.Supp. 1279, 1286 (D.S.C. 1994), citing Fuller v.

101a
Eastern Fire & Cas.Ins.Co., 124 S.E.2d 602, 610
(S.C. 1962). That is assuming, of course, that a
contract is even found to exist. Staley Smith & Sons v.
Limestone College, 322 S.E.2d 474, 477 (S.C.Ct. App.
1984) [If the agreement is manifested by conduct, it
is said to be implied. However, the parties must
manifest a mutual intent to be bound]. 35 Further,
with respect to employment, there is a presumption in
South Carolina that employees are at-will, and
therefore in order to survive a motion for summary
judgment on a claim for breach of a contract of
employment, a Plaintiff must also present “sufficient
factual allegations to establish the existence of
an employment contract beyond the at-will
relationship.” Perrine, 2011 WL 3563110, at * 2 [Rule
12 motion case] [“[T]here is a presumption in South
Carolina that employees are at-will, and in order to
survive a Rule 12 motion to dismiss on a claim for
breach of a contract of employment, a Plaintiff must
‘plead sufficient factual allegations to establish the
existence of an employment contract beyond the atwill relationship
’”], quoting Amason v. P. K.
Management, LLC, No. 10-1752, 2011 WL 1100169, at
* 6 (D.S.C. Mar. 23, 2011); see also Prescott v.
Farmer’s Tel. Co-Op., Inc., 516 S.E.2d 923, 927, n. 8
(S.C. 1999)[In South Carolina, “there is a
presumption of at-will employment’]. Plaintiff has
not presented any evidence to show that he had an
“implied” employment contract with Charleston
County just because he was a County employee
(through operation of the Intergovernmental
35 Plaintiff acknowledged at his deposition that he did not
have a written employment contract. See Plaintiff’s Deposition,
p. 171.

102a
Agreement between the County and Pennington as
the Circuit Public Defender). County employees are
not contract employees, and the IGA did not change
Plaintiff’s at-will status. 36
Finally, although captioned and argued as an
“implied” contract claim, Plaintiff further contends
that the at-will nature of his employment was
altered under the facts of this case (again, citing to
the New York Court of Appeals case) because it
would be a violation of “public policy” to not allow
him to pursue such a claim. However, that is not
a contract claim, and in any event Plaintiff has not
shown a “public policy” violation here under state
law. For example, in Ludwick v. This Minute of
Carolina, Inc., 337 S.E.2d 213 (S.C. 1985), the South
Carolina Supreme Court held that a cause of action in
tort exists under South Carolina law where a
retaliatory discharge of an at- will employee
36 Even though the Intergovernmental Agreement
references the Charleston County Employee Handbook and
general rules governing Charleston County employees, Plaintiff
has presented no evidence to show that any such handbook
and/or rules or policies altered his at-will employee status. Cf.
Ford v. Musashi S.C., Inc., No. 07-3734, 2008 WL 4414385
(D.S.C. Sept. 23, 2008), adopting in part and denying in part,
2008 WL 4414497, at * 3 (D.S.C. July 11, 2008)[“[U]nder South
Carolina law where an employee handbook provides a general
policy statement of nondiscrimination such a provision does not
constitute a promise altering the at-will employment
relationship’”]; Karges v. Charleston County Sheriff’s Office,
No. 08-2163, 2010 WL 1303455 at * 10 (D.S.C. Mar. 5,
2010)[Recommending dismissal on summary judgment where
Plaintiff asserted that a handbook altered his employment-atwill status, but failed to introduce the handbook or reference any
evidence to establish the necessary elements of a handbook
claim], adopted by, 2010 WL 1409435 (D.S.C. Mar. 31, 2010);

103a
constitutes a violation of a clear mandate of public
policy, such as “when an employer requires an at-will
employee, as a condition of retaining employment, to
violate the law”. Id, at 216. See also Culler v. Blue
Ridge Electric Cooperative, Inc., 422 S.E.2d 91 (S.C.
1992). However, “[t]his exception is generally applied
in a situation in which an employer requires an
employee to violate a law, or when the reason for the
termination is itself a violation of criminal law”;
Barron v. Labor Finders of South Carolina, 682
S.E.2d 271, 273 (S.C.Ct. App. 2009), aff’d as modified
by, 713 S.E.2d 634 (S.C. 2011); although some other
limited situations may also apply. See Barron, 713
S.E.2d at 637 [noting that there may be cases where a
public policy wrongful termination claim could be
pursued even where a discharge did not itself violate
a criminal law or the employer did not require the
employee to violate the law], citing to Garner v.
Morrison Knudsen Corp., 456 S.E.2d 907 (S.C. 1995)
and Keiger v. Citgo Coastal Petroleum, Inc., 482
S.E.2d 792 (S.C.Ct.App. 1997).
However, while Plaintiff’s evidence could be
construed as showing that Pennington was forcing
(or attempting to force) him to commit an ethical
violation (by not reporting unethical conduct to the
Bar), there is no evidence that Pennington was
attempting to force Plaintiff to commit a crime, or
that Plaintiff’s termination was in violation of any
criminal law or constituted a crime. Lawson v. South
Carolina Dept. of Corrections, 532 S.E.2d 259, 260261 (S.C. 2000)[Public policy claim arises where “an
employer requires an employee to violate the
[criminal] law or the reason for the employee’s
termination was itself a violation of a criminal

104a
law”]; cf. Eady v. Veolia Transp. Services, Inc., 609
F.Supp.2d 540, 559 (D.S.C. 2009)[Plaintiff failed to
show violation of public policy where he claimed
that he was terminated for refusing to sign a blank
affidavit]; King v. Charleston County School
District, 664 F.Supp.2d 571, 584-585 (D.S.C. May
21, 2009); Love v. Cherokee County Veteran’s Affairs
Office, No. 09-194, 2009 WL 2394369, at * 3 (D.S.C.
Jul. 31, 2009)[Granting Rule 12 motion to dismiss
where no inference could be drawn from the facts
alleged that the Plaintiff’s termination was in
violation of a criminal law]; Barron, 682 S.E.2d at 273274 [No wrongful discharge action where employee
was not asked to violate the law and his termination
did not violate the criminal law]; see also Merck v.
Advanced Drainage System, Inc., 921 F.2d 549, 554
(4th Cir. 1990)[The “public policy” exception to the
at-will doctrine “is to be very narrowly applied.”].
Further, even in those limited (and as yet
undefined 37) circumstances where the violation of a
criminal statute is not involved, a Ludwick claim still
cannot be asserted where there are federal or state
statutory remedies available to vindicate the public
policies allegedly implicated by a plaintiff’s
termination, as the South Carolina Supreme Court
has explicitly held that “[w]hen a statute creates a
substantive right and provides a remedy for
infringement of that right, the Plaintiff is limited to
that statutory remedy.” Palmer v. House of Blues
Myrtle Beach Restaurant Corp., No. 05-3301, 2006
WL 2708278 at *3 (D.S.C. Sept. 20, 2006) (citing
Lawson, 532 S.E.2d 259). As noted in Stiles v. Am.
37

See Barron, 713 S.E.2d at 637-638.

105a
Gen. Life Ins. Co., 516 S.E.2d 449, 450 (S.C. 1999),
the public policy exception “is not designed to
overlap an employee’s statutory or contractual rights
to challenge a discharge, but rather to provide a
remedy for a clear violation of public policy where
no other reasonable means of redress exists”. Id.
(Toal, J. concurring). Here, Plaintiff has or had other
potential remedies for his alleged wrongful
termination claim, including under the First
Amendment (through 42 U.S.C. § 1983) as well as
under the ADA and/or the FMLA. Palmer, 2006 WL
2708278, at * 3 [[t]he public policy exception does not
. . . extend to situations where the employee has an
existing
statutory
remedy
for
wrongful
termination”].
In
sum,
as
Plaintiff
has
potential
constitutional and statutory remedies for his
termination claim, he may not pursue a separate
state law public policy/wrongful termination cause of
action. Palmer, 2006 WL 2708278, at * * 3 and 5;
Ramsey v. Vanguard Servs, Inc., No. 07-265, 2007
WL 904526 at *1 (D.S.C. Mar. 22, 2007); Dockins v.
Ingles Markets, Inc., 413 S.E.2d 18, 19 (S.C. 1992);
see Merck, 921 F.2d at 554 [The “public policy”
exception to the at-will doctrine “is to be very
narrowly applied.”]; Zeigler v. Guidant Corp., No. 073448, 2008 WL 2001943 at * 2 (D.S.C. May 6, 2008)
[“The Ludwick exception to at-will employment is
not designed to overlap an employee’s statutory
rights to challenge a discharge, but rather to
provide a remedy for a clear violation of public
policy where no other reasonable means of redress
exists.”] (quoting Stiles, 516 S.E.2d at 452).
Therefore, this claim should be dismissed.

106a

Conclusion
Based on the foregoing, it is recommended
that the Defendant Pennington’s motion for summary
judgment on his counterclaim for defamation be
denied. It is further recommended that the
Defendants’ motion for summary judgment on
Plaintiff’s claims be granted, in part, and denied, in
part, as follows:
The Defendants Pennington (in his official
capacity) and Charleston County should be
dismissed as party Defendants in Plaintiff’s First
Cause of Action asserting a First Amendment claim.
That claim should then proceed against Pennington
in his individual capacity.
The Defendant Pennington (in his official
capacity) should be dismissed as a party Defendant
in Plaintiff’s Second Cause of Action under the ADA.
That claim should then proceed against the
Defendant Charleston County.
The Defendant Pennington (in both his official
and individual capacities) should be dismissed as a
party Defendant in Plaintiff’s Third Cause of Action
under the FMLA. That claim should then proceed
against the Defendant Charleston County.
The Defendant Pennington’s motion for
summary judgment on Plaintiff’s Fourth Cause of
Action for defamation (against him in his individual
capacity) should be denied.

107a
The Defendants’ motion for summary judgment
with respect to Plaintiff’s Fifth Cause of Action for
breach of implied contract should be granted, and
that claim should be dismissed. The Plaintiff has also
withdrawn his Sixth and Seventh Causes of Action.
Therefore, those claims should also be dismissed.
The parties are referred to the Notice Page attached
hereto.

Bristow Marchant
United States Magistrate
Judge
November 15, 2018
Charleston, South Carolina
Notice of Right to File Objections to
Report and Recommendation
The parties are advised that they may file
specific written objections to this Report and
Recommendation with the District Judge. Objections
must specifically identify the portions of the Report
and Recommendation to which objections are made
and the basis for such objections. “[I]n the absence of
a timely filed objection, a district court need not
conduct a de novo review, but instead must ‘only
satisfy itself that there is no clear error on the face of
the record in order to accept the recommendation.’”
Diamond v. Colonial Life & Acc. Ins. Co., 416 F.3d 310

108a
(4th Cir. 2005) (quoting Fed. R. Civ. P. 72 advisory
committee’s note).
Specific written objections must be filed
within fourteen (14) days of the date of service of this
Report and Recommendation. 28 U.S.C. § 636(b)(1);
Fed. R. Civ. P. 72(b); see Fed. R. Civ. P. 6(a), (d).
Filing by mail pursuant to Federal Rule of Civil
Procedure 5 may be accomplished by mailing
objections to:
Robin L. Blume, Clerk
United States District Court
Post Office Box 835
Charleston, South Carolina 29402
Failure to timely file specific written
objections to this Report and Recommendation
will result in waiver of the right to appeal from
a judgment of the District Court based upon
such Recommendation. 28 U.S.C. § 636(b)(1);
Thomas v. Arn, 474 U.S. 140 (1985); Wright v.
Collins, 766 F.2d 841 (4th Cir. 1985); United States
v. Schronce, 727 F.2d 91 (4th Cir. 1984).

109a
[ENTERED: April 14, 2020]
FILED: April 14, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-1457
(2:15-cv-04455-BHH)
BEATTIE I. BUTLER
Plaintiff - Appellee
v.
D. ASHLEY PENNINGTON, in his individual and
official capacities
Defendant - Appellant
and
CHARLESTON COUNTY
Defendant
ORDER
The court denies the petition for rehearing and
rehearing en banc. No judge requested a poll under
Fed. R. App. P. 35 on the petition for rehearing en
banc.

110a
Entered at the direction of the panel: Judge
King, Judge Thacker, and Judge Harris.
For the Court
/s/ Patricia S. Connor, Clerk

